             DEPARTMENT OF HEALTH & HUMAN SERVICES                                                      Office of Inspector General



                                                                                                        Washington, D.C. 20201



                                                       MAY 192010


TO: 	              Edwin L. Walker
                   Deputy Assistant Secretary for Program Operations
                   Administration on Aging


FROM:              Stuart E. Wrigh~ /S/
                   Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Performance Data for the Senior Medicare Patrol
           Projects: May 2010 Performance Report, OEI-02-1 0-001 00


This memorandum report presents performance data for the Senior Medicare Patrol
Projects. The Office of Inspector General (OIG) has collected these data since 1997. In
December 2005, the Administration on Aging (AoA) requested that OIG continue to collect
and report performance data for the Senior Medicare Patrol Projects to support AoA's
efforts to evaluate and improve the performance of these projects. OIG agreed to collect
performance data every 6 months but to report the data on an annual basis.

In 2009, the 55 Senior Medicare Patrol Projects had a total of 4,444 active volunteers.
Medicare' funds recovered that were attributable to the projects were $76,176, and total savings
to Medicare, Medicaid, beneficiaries, and others were $214,060. The projects had 5 percent
fewer active volunteers in 2009, compared to the number in 2008. Despite this fact, total savings
to Medicare, Medicaid, beneficiaries, and others were over three times higher in 2009, compared
to totals in 2008.

BACKGROUND

The Senior Medicare Patrol Projects receive grants from AoA to recruit retired
professionals to serve as educators and resources in helping beneficiaries to detect and
report fraud, waste, and abuse in the Medicare program. At least one project is located in
each of the 50 States, as well'as in the District of Columbia, Puerto Rico, Guam, and the
Virgin Islands. In 2009, 55 Senior Medicare Patrol Projects received a total of$93 million
from AoA.




OEI-02-10-00100 Performance Data for the Senior Medicare Patrol Projects: May 2010 Performance Report
Page 2 – Edwin L. Walker


Performance Measures
In 2007, AoA revised some of the performance measures to more accurately reflect the work of
the Senior Medicare Patrol Projects. AoA developed the following performance measures,
among others: number of active volunteers, number of simple inquiries, and number of complex
issues. Active volunteers are individuals who are trained to assist with teaching beneficiaries
how to detect fraud, waste, and abuse in Medicare and other health care programs. Simple
inquiries from beneficiaries are quickly resolved with very little research or review. Complex
issues involve more detailed information related to an issue or a complaint that may warrant
further action by an investigative agency, such as the reporting of potential fraud and abuse by a
provider.

In addition, beginning in 2007, the Senior Medicare Patrol Projects were required to measure
health care expenditures for which the Medicare program, the Medicaid program, a beneficiary,
or other entity (e.g., secondary health insurer, pharmacy) was relieved of responsibility for
payment as a result of the projects. This performance measure is referred to as cost avoidance.
For example, if a beneficiary discovers charges for services he or she did not receive and the
project, on behalf of the beneficiary, receives a revised billing statement from the provider, the
project may report this as cost avoidance.

Tracking Systems
AoA has developed a Web-based system named the Seniors Medicare Assistance and Reporting
Tool for Fraud and Complaint Tracking System (SMART FACTS). The Senior Medicare Patrol
Projects are required to use SMART FACTS to track and report activities and complaints and to
refer cases directly to an investigative agency.

METHODOLOGY

This review is based on data reported by the Senior Medicare Patrol Projects. In addition, we
requested and reviewed documentation from the projects for the actual funds recovered to the
Medicare program, the Medicaid program, beneficiaries, and others that were attributable to the
projects. We also requested and reviewed documentation for the measure on cost avoidance.
We did not review documentation for the other performance measures. The results are presented
in detail in the appendixes.

This review was conducted in accordance with the Quality Standards for Inspections approved
by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Results for 2009
In 2009, the 55 projects had a total of 4,444 active volunteers. These volunteers educated
beneficiaries in 7,177 group education sessions and held 33,855 one-on-one counseling sessions.
In addition, the projects conducted 311,377 media outreach activities and 5,684 community
outreach education events. As a result of these training sessions and events, the projects received
60,242 simple inquiries. They also received 3,052 inquiries involving complex issues, of which
966 were referred for further action. Medicare funds recovered attributable to the projects were


OEI-02-10-00100 Performance Data for the Senior Medicare Patrol Projects: May 2010 Performance Report   2
Page 3 – Edwin L. Walker


$76,176 and actual savings to the beneficiaries attributable to the projects were $49,230. Total
savings to Medicare, Medicaid, beneficiaries, and others were $214,060. Additionally, cost
avoidance on behalf of the Medicare program, the Medicaid program, beneficiaries, and others,
totaled $564,968.

Results Since 1997
Since the inception of the program 13 years ago, a total of 72 projects (17 of which had closed as
of December 2009) reported educating beneficiaries in 74,668 group education sessions and
1,042,098 one-on-one sessions. In addition, the projects reported conducting 1,269,337 media
outreach activities and 68,831 community outreach education events. Actual Medicare funds
recovered attributable to the projects were $4,597,575. Total savings to Medicaid, beneficiaries,
and other payers were approximately $101 million. Most of the $101 million in savings was the
result of one project’s involvement in adjustments to Medicaid claims for individuals entitled to
both Medicaid and Medicare.

Documentation of Recovered Funds
In 2009, 9 of the 55 projects submitted 21 forms of documentation. Fifteen forms of
documentation showed funds recovered to the Medicare program through an investigative
agency or Medicare contractor. The six remaining forms of documentation showed funds
recovered through a revised Medicare Summary Notice or a letter from the provider.

Comparison With Results for 2008
The projects had fewer active volunteers in 2009, compared to the number in 2008. In 2009,
projects had 4,444 volunteers, compared to 4,685 in 2008. The number of group education
sessions and one-on-one counseling sessions held by the projects increased in 2009, compared to
2008. Specifically, projects reported educating beneficiaries in 7,177 group education sessions
and 33,855 one-on-one counseling sessions in 2009, compared to 6,869 group education sessions
and 24,505 one-on-one counseling sessions in 2008. In addition, Medicare funds recovered and
total savings to Medicare, Medicaid, beneficiaries, and others were higher in 2009, compared to
totals in 2008. In 2009, Medicare funds recovered attributable to the projects were $76,176,
compared to $21,068 in 2008. Total savings to Medicare, Medicaid, beneficiaries, and others
attributable to the projects were $214,060 in 2009, compared to $65,735 in 2008.

CONCLUSION

In 2009, the 55 Senior Medicare Patrol Projects had a total of 4,444 active volunteers.
Medicare funds recovered that were attributable to the projects were $76,176 and total savings to
Medicare, Medicaid, beneficiaries, and others were $214,060. The projects had 5 percent fewer
active volunteers in 2009, compared to the number in 2008. Despite this fact, total savings to
Medicare, Medicaid, beneficiaries, and others were over three times higher in 2009, compared to
totals in 2008.

We continue to emphasize that the number of beneficiaries who have learned from the Senior
Medicare Patrol Projects to detect fraud, waste, and abuse and who subsequently call the OIG
fraud hotline or other contacts cannot be tracked. Therefore, the projects may not be receiving



OEI-02-10-00100 Performance Data for the Senior Medicare Patrol Projects: May 2010 Performance Report   3
Page 4 – Edwin L. Walker


full credit for savings attributable to their work. In addition, the projects are unable to track
substantial savings derived from a sentinel effect whereby fraud and errors are reduced in light of
Medicare beneficiaries’ scrutiny of their bills.

As agreed, we will continue to monitor the projects and will provide AoA with annual summary
reports of performance data. This memorandum report is being issued directly in final form
because it contains no recommendations. If you have comments or questions about this
memorandum report, please provide them within 60 days. Please refer to report number
OEI-02-10-00100 in all correspondence.




OEI-02-10-00100 Performance Data for the Senior Medicare Patrol Projects: May 2010 Performance Report   4
  Senior Medicare Patrol Projects’ Performance Measure Results



List of Appendixes

Appendix A: Summary of Performance for All Projects Since 1997………………………….………6

Appendix B: Summary of Performance for All Projects for 2009………………………….……........8

Appendix C: Projects’ Results for Each Performance Measure for 2009……………...……………...10

Appendix D: Individual Project Results for 2009………………………………………………..…... 35

Appendix E: Performance Measures Definitions……………………………………………………...91




                                                                        5
          A P P E N D I X               ~     A




                         Summary of Performance for All Projects Since 1997
The following table provides overall performance for all 72 projects that have operated since 1997.

Totals may not add up because of rounding.

Performance measures labeled with an asterisk (*) are reported as of 2007.

For performance measure #15, “Number of complex issues pending further action,” the same issue can continue through numerous
reporting periods for a project. The number of issues is not a unique count and therefore the data cannot be added to the number from
prior years.




                                                                                                        6
A P P E N D     I X      ~      A
                                Summary of Performance for All Projects Since 1997
                                                                                                     1997–2008         2009    Total Since 1997
                                        PEFORMANCE MEASURES
1          Total number of active volunteers*                                                           15,023        4,444             19,467
2          Total number of volunteer training hours*                                                   239,268       47,886            287,154
3          Total number of volunteer work hours*                                                       421,395      122,410            543,805
4          Number of media outreach activities                                                         957,960      311,377          1,269,337
5          Number of community outreach education events conducted                                      63,147        5,684             68,831
6          Estimated number of people reached by community outreach education events                 22,351,678    1,497,950        23,849,628
7          Number of group education sessions for beneficiaries                                         67,491        7,177             74,668
8A         Number of beneficiaries who attended group education sessions                              2,582,985     217,227          2,800,212
8B         Increase in the number of beneficiaries who understand how reading their Medicare
           Summary Notice can help identify billing fraud or errors*                                    39,722       13,985             53,707
8C         Increase in the number of beneficiaries who understand why it is important to seek
           assistance with billing questions*                                                           43,305       17,272             60,577
8D         Increase in the number of beneficiaries who know why it is important to protect their
           Medicare and Social Security numbers*                                                        36,273       23,193             59,466
9          Number of one-on-one counseling sessions held with or on behalf of a beneficiary           1,008,243      33,855          1,042,098
10         Total number of simple inquiries received*                                                   110,542      60,242            170,784
11         Total number of simple inquiries resolved*                                                   101,118       59,938           161,056
12         Number of inquiries involving complex issues received*                                        21,683        3,052            24,735
13A        Number of inquiries involving complex issues referred for further action*                      4,445          966             5,411
13B        Total dollar amount referred for further action*                                          $3,860,644   $3,762,448        $7,623,092
14         Number of complex issues resolved*                                                             7,932        2,588            10,520
15         Number of complex issues pending further action*                                                  —         1,815             1,815
16         Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others*                 $7,521,333    $564,968         $8,086,301
17A        Actual Medicare funds recovered attributable to the projects                              $4,521,399      $76,176        $4,597,575
17B        Actual Medicaid funds recovered attributable to the projects                                $545,801       $9,919         $555,720
17C        Actual savings to beneficiaries attributable to the projects                              $3,167,543      $49,230        $3,216,773
17D        Other savings attributable to the projects (e.g., Supplemental Insurance)                $97,488,145      $78,735       $97,566,880
17B-17D    Total savings to Medicaid, beneficiaries, and other payers                              $101,201,489    $137,884       $101,339,373
17A –17D
           Total savings attributable to the projects                                              $105,722,887    $214,060       $105,936,948



                                                                                                          7
             A P P E N D I X                ~    B



                            Summary of Performance for All Projects for 2009

The following table provides data for the 55 Senior Medicare Patrol Projects that operated in 2009. The table provides the
performance measure results for the two 6-month reporting periods.

Totals may not add up because of rounding.

For performance measure #1, “Total number of active volunteers,” many of the volunteers are the same in both of the two 6-month
periods and therefore the numbers do not sum to the total for the year.

For performance measure #13A, “Number of inquiries involving complex issues referred for further action,” the same case may have
multiple referrals reported in both of the two 6-month periods, but only counts as one referral for the year total.

For performance measure #15, “Number of complex issues pending further action,” the same issue can continue through numerous
reporting periods for a project. The number of issues is not a unique count and therefore the data from the two 6-month periods do not
sum to the year total.




                                                                                                        8
A P P E N D     I X      ~      B

                                    Summary of Performance for All Projects for 2009
                                                                                                Jan–June          July–Dec    Total for 2009
                                      PEFORMANCE MEASURES
1          Total number of active volunteers                                                        2,805            3,417           4,444
2          Total number of volunteer training hours                                                15,112           32,774          47,886
3          Total number of volunteer work hours                                                    50,468           71,942         122,410
4          Number of media outreach activities                                                    119,605          191,772         311,377
5          Number of community outreach education events conducted                                  2,965            2,719           5,684
6          Estimated number of people reached by community outreach education events              343,252         1,154,698      1,497,950
7          Number of group education sessions for beneficiaries                                     3,612            3,565           7,177
8A         Number of beneficiaries who attended group education sessions                          106,258          110,969         217,227
8B         Increase in the number of beneficiaries who understand how reading their
           Medicare Summary Notice can help identify billing fraud or errors                        6,796            7,189          13,985
8C         Increase in the number of beneficiaries who understand why it is important to seek
           assistance with billing questions                                                        8,541            8,731          17,272
8D         Increase in the number of beneficiaries who know why it is important to protect
           their Medicare and Social Security numbers                                              11,583           11,610          23,193
9          Number of one-on-one counseling sessions held with or on behalf of a beneficiary        15,336           18,519          33,855
10         Total number of simple inquiries received                                               28,677           31,565          60,242
11         Total number of simple inquiries resolved                                                28,543           31,395         59,938
12         Number of inquiries involving complex issues received                                     1,636            1,416          3,052
13A        Number of inquiries involving complex issues referred for further action                    487              487            966
13B        Total dollar amount referred for further action                                      $2,449,542       $1,312,906     $3,762,448
14         Number of complex issues resolved                                                         1,320            1,268          2,588
15         Number of complex issues pending further action                                           1,416            1,815          1,815
16         Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others              $189,115         $375,852       $564,968
17A        Actual Medicare funds recovered attributable to the projects                             $2,738          $73,438        $76,176
17B        Actual Medicaid funds recovered attributable to the projects                             $2,058           $7,861         $9,919
17C        Actual savings to beneficiaries attributable to the projects                            $28,529          $20,701        $49,230
17D        Other savings attributable to the projects (e.g., Supplemental Insurance)               $33,787          $44,949        $78,735
17A –17D   Total savings attributable to the projects                                             $67,112         $146,949        $214,060


                                                                                                             9
          A P P E N D I X               ~     C



                      Projects’ Results for Each Performance Measure for 2009
The following tables provide the results for each performance measure for each of the 55 Senior Medicare Patrol Projects operating
in 2009. Each table provides the performance measure results for the two 6-month reporting periods.

Totals may not add up because of rounding.

For performance measure #1, “Total number of active volunteers,” many of the volunteers are the same in both of the two 6-month
periods and therefore the numbers do not sum to the total for the year.

For performance measure #13A, “Number of inquiries involving complex issues referred for further action,” the same case may have
multiple referrals reported in both of the two 6-month periods, but only counts as one referral for the year total.

For performance measure #15, “Number of complex issues pending further action,” the same issue can continue through numerous
reporting periods for a project. The number of issues is not a unique count and therefore the data from the two 6-month periods do not
sum to the year total.




                                                                                                        10
A P P E N D            I X   ~   C

                                        PERFORMANCE MEASURE 1: Total Number of Active Volunteers
                                     Jan–June   July–Dec   Total for 2009                    Jan–June   July–Dec   Total for 2009
Alabama                                    27         20               32   Nebraska                5        103              104
Alaska                                     26        100              111   Nevada                  1          0                1
Arizona                                     3         18               21   New Hampshire          28          7               29
Arkansas                                   31          9               32   New Jersey             11          6               15
California                                152        108              222   New Mexico             29         65               89
Colorado                                   17         58               65   New York              387        388              388
Connecticut                                39        143              144   North Carolina         13         20               22
Delaware                                   12         18               22   North Dakota           32         11               41
District of Columbia                       48         40               54   Ohio                   43         31               57
Florida                                    66         78              101   Oklahoma               22         51               62
Georgia                                    65         50               87   Oregon                172        194              253
Guam                                        9         11               16   Pennsylvania           23         23               29
Hawaii                                     38         34               53   Puerto Rico            10          7               10
Idaho                                     113        168              190   Rhode Island           32        155              162
Illinois                                   21         16               29   South Carolina          0          0                0
Indiana                                    12          2               13   South Dakota           24        115              119
Iowa                                       87         71              102   Tennessee              44         73              102
Kansas                                     46         18               52   Texas – BBB             2          8                9
Kentucky                                   32         41               59   Texas – NHCOA         147        147              189
Louisiana                                   1         21               22   Utah                  105         75              139
Maine                                      68         66               83   Vermont                22         37               40
Maryland                                  141        100              160   Virginia               22         94               95
Massachusetts                              37          9               39   Virgin Islands         29         33               39
Michigan                                  217        290              331   Washington             24         13               26
Minnesota                                  56         41               83   West Virginia          63         70               76
Mississippi                                23         24               34   Wisconsin              41         36               52
Missouri                                   26         32               38   Wyoming                19         41               57
Montana                                    42         28               44




                                                                                                 11
A P P E N D            I X   ~   C


                                     PERFORMANCE MEASURE 2: Total Number of Volunteer Training Hours
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                     54          46              100   Nebraska                 6       2,482            2,488
Alaska                                      31       2,151            2,182   Nevada                   0           0                0
Arizona                                      0         150              150   New Hampshire            0          16               16
Arkansas                                    71           0               71   New Jersey               0          23               23
California                                 218         112              330   New Mexico             432       2,788            3,220
Colorado                                   363         544              907   New York               774         840            1,614
Connecticut                                  0       3,221            3,221   North Carolina         115          84              199
Delaware                                   232         179              411   North Dakota            18          15               33
District of Columbia                       193         445              638   Ohio                   185          88              273
Florida                                     62          40              102   Oklahoma                10          98              108
Georgia                                    353          81              434   Oregon                 537          79              616
Guam                                        17         187              204   Pennsylvania            17          33               50
Hawaii                                     243         127              370   Puerto Rico            132         264              396
Idaho                                      757       1,273            2,029   Rhode Island           266         644              910
Illinois                                    23          17               40   South Carolina           0           0                0
Indiana                                    140           0              140   South Dakota             7         243              250
Iowa                                       201          44              245   Tennessee              401         465              866
Kansas                                      43         110              153   Texas – BBB              0          34               34
Kentucky                                   117         146              263   Texas – NHCOA          505       4,835            5,340
Louisiana                                    0         118              118   Utah                    60         699              759
Maine                                    1,087         545            1,632   Vermont                156         215              371
Maryland                                 1,644       1,277            2,921   Virginia                19       1,385            1,404
Massachusetts                               23           0               23   Virgin Islands         104          70              174
Michigan                                 2,531       5,480            8,011   Washington              78          96              173
Minnesota                                  580         234              814   West Virginia          229         188              417
Mississippi                                320          53              373   Wisconsin                8          18               26
Missouri                                    80         166              246   Wyoming              1,499         311            1,810
Montana                                    173          20              194




                                                                                                   12
A P P E N D            I X   ~   C


                                      PERFORMANCE MEASURE 3: Total Number of Volunteer Work Hours
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                 12,058       8,309           20,367   Nebraska                18         182              199
Alaska                                       0           0                0   Nevada                   5           0                5
Arizona                                    173         944            1,118   New Hampshire          760       1,624            2,384
Arkansas                                   338         183              521   New Jersey              98          31              129
California                               1,130         867            1,997   New Mexico               0         241              241
Colorado                                    15          24               39   New York               506         589            1,095
Connecticut                                220          42              262   North Carolina         497       9,560           10,057
Delaware                                   567         370              937   North Dakota           131          49              180
District of Columbia                       369         363              732   Ohio                   235         390              625
Florida                                    719         694            1,413   Oklahoma               646       1,803            2,449
Georgia                                    623       1,139            1,762   Oregon               1,948       3,595            5,543
Guam                                       259         767            1,025   Pennsylvania           209         211              420
Hawaii                                      66         103              169   Puerto Rico            356         240              596
Idaho                                    1,853       1,922            3,775   Rhode Island           461          78              540
Illinois                                    63         124              187   South Carolina           0           0                0
Indiana                                    518          10              528   South Dakota            41         102              143
Iowa                                     1,107         954            2,061   Tennessee               97         772              869
Kansas                                     130         297              428   Texas – BBB              4          17               21
Kentucky                                   504         643            1,147   Texas – NHCOA        5,044      21,812           26,856
Louisiana                                    3          44               47   Utah                 2,247       1,722            3,969
Maine                                    1,308       2,031            3,339   Vermont                310         551              861
Maryland                                 2,763       1,422            4,185   Virginia               340         204              544
Massachusetts                            3,981         841            4,822   Virgin Islands         182         463              645
Michigan                                   198         189              387   Washington             462         861            1,324
Minnesota                                  117         180              296   West Virginia          591       1,153            1,744
Mississippi                              4,977       1,793            6,770   Wisconsin              376         376              752
Missouri                                   537         841            1,378   Wyoming                 24          41               65
Montana                                    285         182              467




                                                                                                   13
A P P E N D            I X   ~   C


                                       PERFORMANCE MEASURE 4: Number of Media Outreach Activities
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                 63,927      26,570           90,497   Nebraska               216          69              285
Alaska                                       5         254              259   Nevada                 393           7              400
Arizona                                      6           0                6   New Hampshire          332          56              388
Arkansas                                    32          38               70   New Jersey           2,538          12            2,550
California                                  75          69              144   New Mexico               1           8                9
Colorado                                    16          12               28   New York               437          26              463
Connecticut                                 18           2               20   North Carolina       1,511       1,733            3,244
Delaware                                   785         473            1,258   North Dakota            26           4               30
District of Columbia                       224         141              365   Ohio                   185          27              212
Florida                                    386         253              639   Oklahoma               278           1              279
Georgia                                  4,559          72            4,631   Oregon                  27       1,801            1,828
Guam                                    16,002          35           16,037   Pennsylvania             5           0                5
Hawaii                                      59           2               61   Puerto Rico              3           0                3
Idaho                                       43          49               92   Rhode Island            19           1               20
Illinois                                    57          54              111   South Carolina           0           0                0
Indiana                                     23       2,611            2,634   South Dakota             0           5                5
Iowa                                        58          79              137   Tennessee              115         454              569
Kansas                                       7          19               26   Texas – BBB             11           4               15
Kentucky                                    98         141              239   Texas – NHCOA           23          18               41
Louisiana                                    0          23               23   Utah                    41          25               66
Maine                                       51           9               60   Vermont                 26          56               82
Maryland                                    36         110              146   Virginia                 6           7               13
Massachusetts                           20,001    153,086           173,087   Virgin Islands         153         142              295
Michigan                                    38           3               41   Washington              12         448              460
Minnesota                                    2           3                5   West Virginia          634         325              959
Mississippi                                  1         525              526   Wisconsin            4,092          52            4,144
Missouri                                     1          49               50   Wyoming                  0       1,351            1,351
Montana                                  2,011         458            2,469




                                                                                                   14
A P P E N D            I X   ~   C


                         PERFORMANCE MEASURE 5: Number of Community Outreach Education Events Conducted
                                     Jan–June   July–Dec   Total for 2009                    Jan–June   July–Dec   Total for 2009
Alabama                                   211         88              299   Nebraska              183        129              312
Alaska                                     29         21               50   Nevada                 16         16               32
Arizona                                    18         32               50   New Hampshire          37          8               45
Arkansas                                   15          6               21   New Jersey             25         11               36
California                                 71         26               97   New Mexico            242        186              428
Colorado                                   14          9               23   New York              124        106              230
Connecticut                                37         70              107   North Carolina         36         64              100
Delaware                                   30         66               96   North Dakota           24         31               55
District of Columbia                       28         39               67   Ohio                   33         65               98
Florida                                   111        103              214   Oklahoma               66         88              154
Georgia                                    70         55              125   Oregon                100        165              265
Guam                                       15         23               38   Pennsylvania           23         28               51
Hawaii                                     17         10               27   Puerto Rico            77          0               77
Idaho                                      28         34               62   Rhode Island           75         20               95
Illinois                                  121         86              207   South Carolina         13         12               25
Indiana                                    39         54               93   South Dakota            4          0                4
Iowa                                       25         26               51   Tennessee             122        159              281
Kansas                                     11         10               21   Texas – BBB            26         20               46
Kentucky                                   10         63               73   Texas – NHCOA          37         34               71
Louisiana                                   0          7                7   Utah                   22         35               57
Maine                                      45         15               60   Vermont                 4          6               10
Maryland                                   85        110              195   Virginia              169        146              315
Massachusetts                               4          8               12   Virgin Islands         12         18               30
Michigan                                  106         39              145   Washington             66         64              130
Minnesota                                  20         23               43   West Virginia          23         27               50
Mississippi                                50         91              141   Wisconsin              32         35               67
Missouri                                   94         67              161   Wyoming                 3         15               18
Montana                                    67         50              117




                                                                                                 15
A P P E N D            I X   ~   C


          PERFORMANCE MEASURE 6: Estimated Number of People Reached by Community Outreach Education Events
                                 Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                             32,978      30,340           63,318   Nebraska             9,886      15,108           24,994
Alaska                               3,567       2,983            6,550   Nevada               3,152       3,630            6,782
Arizona                              1,480       3,209            4,689   New Hampshire        1,150         592            1,742
Arkansas                             1,205       1,652            2,857   New Jersey           2,394       1,138            3,532
California                          26,218       9,435           35,653   New Mexico          39,101      20,350           59,451
Colorado                               776         842            1,618   New York            24,382      22,833           47,215
Connecticut                          3,024       9,960           12,984   North Carolina      12,794    810,526           823,320
Delaware                             2,787       5,070            7,857   North Dakota         3,205       2,777            5,982
District of Columbia                 3,494       5,624            9,118   Ohio                 3,893       3,466            7,359
Florida                              7,102       7,503           14,605   Oklahoma            13,222      19,659           32,881
Georgia                             10,329       7,578           17,907   Oregon               4,376      28,692           33,068
Guam                                 2,655         710            3,365   Pennsylvania         1,912       2,777            4,689
Hawaii                               3,440       2,701            6,141   Puerto Rico          6,858           0            6,858
Idaho                                4,122       6,802           10,924   Rhode Island         4,324       3,343            7,667
Illinois                            10,289       8,129           18,418   South Carolina       2,240         782            3,022
Indiana                             11,253      21,050           32,303   South Dakota           472           0              472
Iowa                                 2,000       2,200            4,200   Tennessee           10,785       6,044           16,829
Kansas                                 839       1,247            2,086   Texas – BBB          3,979       4,104            8,083
Kentucky                               673       6,817            7,490   Texas – NHCOA        1,628       6,875            8,503
Louisiana                                0         666              666   Utah                 1,864       2,668            4,532
Maine                                1,674         545            2,219   Vermont                183         139              322
Maryland                             4,691       6,862           11,553   Virginia            17,050       8,516           25,566
Massachusetts                          296         624              920   Virgin Islands       1,122       1,479            2,601
Michigan                             7,480       4,138           11,618   Washington           1,535       4,424            5,959
Minnesota                            1,890       2,135            4,025   West Virginia       13,335      11,685           25,020
Mississippi                          5,085      11,199           16,284   Wisconsin            2,638       4,932            7,570
Missouri                             3,192       2,493            5,685   Wyoming                 20       1,426            1,446
Montana                              3,213       4,219            7,432




                                                                                                16
A P P E N D            I X   ~   C


                             PERFORMANCE MEASURE 7: Number of Group Education Sessions for Beneficiaries
                                     Jan–June   July–Dec   Total for 2009                    Jan–June   July–Dec   Total for 2009
Alabama                                   164        161              325   Nebraska               41         28               69
Alaska                                      0          3                3   Nevada                 20         14               34
Arizona                                    35         45               80   New Hampshire          21         16               37
Arkansas                                   29         13               42   New Jersey             49         77              126
California                                399        281              680   New Mexico              0         26               26
Colorado                                   44         41               85   New York              381        109              490
Connecticut                                37         21               58   North Carolina         56        156              212
Delaware                                    4          7               11   North Dakota           24         20               44
District of Columbia                       30         29               59   Ohio                   20         37               57
Florida                                   111        172              283   Oklahoma              146        109              255
Georgia                                   168        152              320   Oregon                 40         14               54
Guam                                       14         67               81   Pennsylvania           21         24               45
Hawaii                                     31          8               39   Puerto Rico            23          0               23
Idaho                                      97        125              222   Rhode Island           24          2               26
Illinois                                  155        150              305   South Carolina          7          5               12
Indiana                                    59         51              110   South Dakota            2         14               16
Iowa                                      389        464              853   Tennessee              49         47               96
Kansas                                     37         10               47   Texas – BBB           113         69              182
Kentucky                                   20         32               52   Texas – NHCOA          87        122              209
Louisiana                                   0         12               12   Utah                    7         67               74
Maine                                      57         52              109   Vermont                18         13               31
Maryland                                   96        118              214   Virginia               43         86              129
Massachusetts                               4          2                6   Virgin Islands         25         27               52
Michigan                                   57         69              126   Washington             29         22               51
Minnesota                                 136        134              270   West Virginia          25         26               51
Mississippi                                40         38               78   Wisconsin              49         22               71
Missouri                                   22        105              127   Wyoming                 1          5                6
Montana                                    56         46              102




                                                                                                 17
A P P E N D            I X   ~   C


                       PERFORMANCE MEASURE 8A: Number of Beneficiaries Who Attended Group Education Sessions
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 200\9
Alabama                                  6,126       5,464           11,590   Nebraska               890         566             1,456
Alaska                                       0         129              129   Nevada               1,014         415             1,429
Arizona                                  1,499       2,551            4,050   New Hampshire          543         402               945
Arkansas                                 1,310         967            2,277   New Jersey           1,997       2,766             4,763
California                              11,511      10,420           21,931   New Mexico               0         752               752
Colorado                                   992       1,060            2,052   New York            14,747       3,634           18,381
Connecticut                              1,154         552            1,706   North Carolina       4,843      10,903           15,746
Delaware                                    77         122              199   North Dakota           359         554               913
District of Columbia                       608         636            1,244   Ohio                   429         426               855
Florida                                  3,520       5,052            8,572   Oklahoma             5,369       3,297             8,666
Georgia                                  4,769       3,549            8,318   Oregon                 667         199               866
Guam                                       170       1,032            1,202   Pennsylvania           361         745             1,106
Hawaii                                     607         472            1,079   Puerto Rico            555           0               555
Idaho                                    3,803       4,867            8,670   Rhode Island           452          34               486
Illinois                                 4,464       4,180            8,644   South Carolina         170         126               296
Indiana                                    953       1,346            2,299   South Dakota           100         317               417
Iowa                                     8,155      10,831           18,986   Tennessee            1,056       1,165             2,221
Kansas                                   1,519         411            1,930   Texas – BBB          3,359       1,935             5,294
Kentucky                                   478         724            1,202   Texas – NHCOA        3,033       4,713             7,746
Louisiana                                    0         471              471   Utah                   365       2,245             2,610
Maine                                      795       1,278            2,073   Vermont                600         309               909
Maryland                                 1,863       3,129            4,992   Virginia               984       2,100             3,084
Massachusetts                               44         107              151   Virgin Islands         185         259               444
Michigan                                 1,680       2,443            4,123   Washington             797         659             1,456
Minnesota                                1,210       1,494            2,704   West Virginia        1,770       2,745             4,515
Mississippi                                952         875            1,827   Wisconsin            1,196         574             1,770
Missouri                                   649       3,709            4,358   Wyoming                 15         102               117
Montana                                  1,494       1,156            2,650




                                                                                                   18
A P P E N D            I X   ~   C

                PERFORMANCE MEASURE 8B: Increase in Number of Beneficiaries Who Understand How Reading Their
                                        Medicare Summary Notice Can Help Identify Billing Fraud or Errors
                                     Jan–June   July–Dec   Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                     6          0                6   Nebraska               119          83              202
Alaska                                      0          0                0   Nevada                  80           0               80
Arizona                                    36          4               40   New Hampshire            8         112              120
Arkansas                                  178         92              270   New Jersey             452         719            1,171
California                                  8          4               12   New Mexico               0         118              118
Colorado                                  178         11              189   New York                 0           0                0
Connecticut                               287        209              496   North Carolina          45          57              102
Delaware                                   11         37               48   North Dakota           104          55              159
District of Columbia                      138        105              243   Ohio                    48         141              189
Florida                                    93        104              197   Oklahoma               261         253              514
Georgia                                   687        811            1,498   Oregon                 103          89              192
Guam                                       70        259              329   Pennsylvania            24          21               45
Hawaii                                     80         47              127   Puerto Rico             44           0               44
Idaho                                     107         36              143   Rhode Island            49           1               50
Illinois                                   98         31              129   South Carolina           6           2                8
Indiana                                   183         66              249   South Dakota            59          55              114
Iowa                                       66        255              321   Tennessee               32           3               35
Kansas                                    127        101              228   Texas – BBB            124         105              229
Kentucky                                   96        141              237   Texas – NHCOA        2,005       2,217            4,222
Louisiana                                   0         16               16   Utah                    43          10               53
Maine                                     154         34              188   Vermont                 16          12               28
Maryland                                   38        119              157   Virginia                22           0               22
Massachusetts                              42         50               92   Virgin Islands          79         104              183
Michigan                                   31         39               70   Washington               3          14               17
Minnesota                                  18         15               33   West Virginia           88         105              193
Mississippi                                28        162              190   Wisconsin              135          96              231
Missouri                                    0         12               12   Wyoming                  0          20               20
Montana                                    87         37              124




                                                                                                  19
A P P E N D            I X   ~   C

             PERFORMANCE MEASURE 8C: Increase in Number of Beneficiaries Who Understand Why It Is Important To
                                     Seek Assistance With Billing Questions
                                     Jan–June   July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                     5           0                5   Nebraska               242          98              340
Alaska                                      0           0                0   Nevada                 192           0              192
Arizona                                    39           0               39   New Hampshire           55          44               99
Arkansas                                  262         143              405   New Jersey             696         911            1,607
California                                 16           5               21   New Mexico               0         114              114
Colorado                                  272           8              280   New York                 0           0                0
Connecticut                               286         208              494   North Carolina          10          67               77
Delaware                                   59          47              106   North Dakota           138          65              203
District of Columbia                      251         205              456   Ohio                    48         105              153
Florida                                   138         144              282   Oklahoma               494         482              976
Georgia                                   887       1,007            1,894   Oregon                 108          89              197
Guam                                       52         270              322   Pennsylvania            31          31               62
Hawaii                                    111          61              172   Puerto Rico             61           0               61
Idaho                                     120          88              208   Rhode Island            69           4               73
Illinois                                  125          49              174   South Carolina           4           0                4
Indiana                                   270          90              360   South Dakota            24          75               99
Iowa                                      140         499              639   Tennessee               56          16               72
Kansas                                     96          85              181   Texas – BBB            137         182              319
Kentucky                                  199         239              438   Texas – NHCOA        1,831       2,145            3,976
Louisiana                                   0          20               20   Utah                    42          12               54
Maine                                     173         234              407   Vermont                 24          15               39
Maryland                                   59         126              185   Virginia                26           0               26
Massachusetts                              36          49               85   Virgin Islands          83          75              158
Michigan                                   58          26               84   Washington               4          22               26
Minnesota                                  37           9               46   West Virginia          162         122              284
Mississippi                                47         224              271   Wisconsin              143         114              257
Missouri                                    0          27               27   Wyoming                  0          30               30
Montana                                   123          50              173




                                                                                                  20
A P P E N D            I X   ~   C

                 PERFORMANCE MEASURE 8D: Increase in Number of Beneficiaries Who Know Why It Is Important To
                                          Protect Their Medicare and Social Security Numbers
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                     54           0               54   Nebraska               442         203              645
Alaska                                       0           0                0   Nevada                 179           0              179
Arizona                                     33           3               36   New Hampshire           45         117              162
Arkansas                                   389         214              603   New Jersey           1,071       1,463            2,534
California                                  22           6               28   New Mexico               0         156              156
Colorado                                   488          15              503   New York                 0           0                0
Connecticut                                493         210              703   North Carolina          20          96              116
Delaware                                    23          65               88   North Dakota           210          93              303
District of Columbia                       399         341              740   Ohio                   104         219              323
Florida                                    174         205              379   Oklahoma               728         570            1,298
Georgia                                  1,466       1,429            2,895   Oregon                 128          79              207
Guam                                        98         413              511   Pennsylvania            68          38              106
Hawaii                                      82          83              165   Puerto Rico            104           0              104
Idaho                                      240         192              432   Rhode Island            96           3               99
Illinois                                   211          47              258   South Carolina          15          20               35
Indiana                                    382         128              510   South Dakota            33          77              110
Iowa                                       268         819            1,087   Tennessee               93          23              116
Kansas                                      96          98              194   Texas – BBB            255         331              586
Kentucky                                   254         380              634   Texas – NHCOA        1,648       1,976            3,624
Louisiana                                    0          46               46   Utah                    11          22               33
Maine                                      126          12              138   Vermont                 23          25               48
Maryland                                    86         193              279   Virginia                44           0               44
Massachusetts                               44           1               45   Virgin Islands          83         133              216
Michigan                                    96          35              131   Washington               4          27               31
Minnesota                                   34          18               52   West Virginia          185         214              399
Mississippi                                 74         416              490   Wisconsin              221         199              420
Missouri                                     0          51               51   Wyoming                  0          42               42
Montana                                    141          64              205




                                                                                                   21
A P P E N D            I X   ~   C


         PERFORMANCE MEASURE 9: Number of One-on-One Counseling Sessions Held With or on Behalf of a Beneficiary
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                     85          67              152   Nebraska                50         179              229
Alaska                                       0           0                0   Nevada                  11           0               11
Arizona                                     10           3               13   New Hampshire            1           0                1
Arkansas                                   171         167              338   New Jersey              74         126              200
California                                   0           0                0   New Mexico               1          85               86
Colorado                                     0          12               12   New York             2,120       1,037            3,157
Connecticut                                  3           0                3   North Carolina           4          66               70
Delaware                                   178         170              348   North Dakota            23          11               34
District of Columbia                         4           8               12   Ohio                     1           9               10
Florida                                      0          15               15   Oklahoma                 2       1,286            1,288
Georgia                                     51          73              124   Oregon               1,361       2,344            3,705
Guam                                         5         111              116   Pennsylvania           111         165              276
Hawaii                                       5           2                7   Puerto Rico              0           0                0
Idaho                                    1,263       3,278            4,541   Rhode Island            23           0               23
Illinois                                   176         157              333   South Carolina           0           0                0
Indiana                                      9          15               24   South Dakota            32         143              175
Iowa                                        11          22               33   Tennessee               95           8              103
Kansas                                      16          14               30   Texas – BBB              1           1                2
Kentucky                                   408         712            1,120   Texas – NHCOA        7,282       5,211           12,493
Louisiana                                    0          15               15   Utah                   370       1,332            1,702
Maine                                      350         255              605   Vermont                  0           0                0
Maryland                                   166          79              245   Virginia                 8           2               10
Massachusetts                               12           0               12   Virgin Islands          77          67              144
Michigan                                    24           2               26   Washington             169         282              451
Minnesota                                   73          61              134   West Virginia          395         558              953
Mississippi                                 31          75              106   Wisconsin                0           0                0
Missouri                                     2           4                6   Wyoming                  0         220              220
Montana                                     72          70              142




                                                                                                   22
A P P E N D            I X   ~   C


                                 PERFORMANCE MEASURE 10: Total Number of Simple Inquiries Received
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                    354         331              685   Nebraska             1,045       1,969            3,014
Alaska                                       3          15               18   Nevada                  14          36               50
Arizona                                     57          19               76   New Hampshire           42          11               53
Arkansas                                   100         126              226   New Jersey             141          78              219
California                                  10           9               19   New Mexico               0           0                0
Colorado                                   114          80              194   New York                30          23               53
Connecticut                                274         475              749   North Carolina       4,431       5,415            9,846
Delaware                                    18          73               91   North Dakota            23          33               56
District of Columbia                        30          24               54   Ohio                    46          30               76
Florida                                     72         100              172   Oklahoma                43         188              231
Georgia                                    700         807            1,507   Oregon                 631         797            1,428
Guam                                       244         437              681   Pennsylvania             0           3                3
Hawaii                                      42          42               84   Puerto Rico              0           1                1
Idaho                                    1,007       1,234            2,241   Rhode Island           759       1,223            1,982
Illinois                                   205         225              430   South Carolina         182         360              542
Indiana                                     24          96              120   South Dakota            49          46               95
Iowa                                       116          61              177   Tennessee              209         121              330
Kansas                                      95          82              177   Texas – BBB            101          87              188
Kentucky                                   866         990            1,856   Texas – NHCOA        9,828       6,056           15,884
Louisiana                                    4          35               39   Utah                   162       1,944            2,106
Maine                                      371       1,043            1,414   Vermont                  5           2                7
Maryland                                 3,140       1,425            4,565   Virginia               148         386              534
Massachusetts                              250         411              661   Virgin Islands           5           5               10
Michigan                                    35           7               42   Washington             207          84              291
Minnesota                                  188         366              554   West Virginia          566         685            1,251
Mississippi                                396         632            1,028   Wisconsin              353         263              616
Missouri                                   907       2,472            3,379   Wyoming                  6          25               31
Montana                                     29          77              106




                                                                                                   23
A P P E N D            I X   ~   C


                                 PERFORMANCE MEASURE 11: Total Number of Simple Inquiries Resolved
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                    353         328              681   Nebraska             1,045       1,966            3,011
Alaska                                       3          15               18   Nevada                  14          31               45
Arizona                                     57          19               76   New Hampshire           42          11               53
Arkansas                                   100         126              226   New Jersey             132          77              209
California                                   9           7               16   New Mexico               0           0                0
Colorado                                   114          77              191   New York                30          22               52
Connecticut                                274         469              743   North Carolina       4,431       5,415            9,846
Delaware                                    18          71               89   North Dakota            23          33               56
District of Columbia                        30          23               53   Ohio                    44          30               74
Florida                                     70          97              167   Oklahoma                43         188              231
Georgia                                    628         694            1,322   Oregon                 631         797            1,428
Guam                                       244         437              681   Pennsylvania             0           3                3
Hawaii                                      42          42               84   Puerto Rico              0           1                1
Idaho                                    1,006       1,234            2,240   Rhode Island           753       1,222            1,975
Illinois                                   204         225              429   South Carolina         182         360              542
Indiana                                     24          95              119   South Dakota            49          46               95
Iowa                                       116          61              177   Tennessee              208         120              328
Kansas                                      85          81              166   Texas – BBB            101          87              188
Kentucky                                   864         990            1,854   Texas – NHCOA        9,826       6,056           15,882
Louisiana                                    4          35               39   Utah                   162       1,944            2,106
Maine                                      364       1,041            1,405   Vermont                  5           1                6
Maryland                                 3,137       1,424            4,561   Virginia               148         386              534
Massachusetts                              250         409              659   Virgin Islands           5           5               10
Michigan                                    35           7               42   Washington             207          84              291
Minnesota                                  188         366              554   West Virginia          566         685            1,251
Mississippi                                396         628            1,024   Wisconsin              339         252              591
Missouri                                   907       2,472            3,379   Wyoming                  6          24               30
Montana                                     29          76              105




                                                                                                   24
A P P E N D            I X    ~   C


                             PERFORMANCE MEASURE 12: Number of Inquiries Involving Complex Issues Received
                                      Jan–June   July–Dec   Total for 2009                    Jan–June   July–Dec   Total for 2009
Alabama                                     12          0               12   Nebraska               28         20               48
Alaska                                       1          1                2   Nevada                  3          3                6
Arizona                                      6          8               14   New Hampshire          20          4               24
Arkansas                                    24         21               45   New Jersey              9          3               12
California                                  72         49              121   New Mexico             64         58              122
Colorado                                    39         33               72   New York               35         77              112
Connecticut                                 18          4               22   North Carolina          0          0                0
Delaware                                     5          5               10   North Dakota            2          3                5
District of Columbia                         4          3                7   Ohio                    6          8               14
Florida                                     39         52               91   Oklahoma                5         11               16
Georgia                                     45         23               68   Oregon - SMP            6         23               29
Guam                                         1          0                1   Pennsylvania           10          3               13
Hawaii                                       8         12               20   Puerto Rico             0          0                0
Idaho                                       61         41              102   Rhode Island            5          1                6
Illinois                                    36         38               74   South Carolina          9         14               23
Indiana                                      8          0                8   South Dakota            0          0                0
Iowa                                        12         15               27   Tennessee              18         26               44
Kansas                                      17         22               39   Texas – BBB            24         37               61
Kentucky                                     0          1                1   Texas – NHCOA         106         60              166
Louisiana                                    1         16               17   Utah                    8         22               30
Maine                                        2          1                3   Vermont                 4          3                7
Maryland                                    81         48              129   Virginia                8          8               16
Massachusetts                               73          8               81   Virgin Islands          0          1                1
Michigan                                    16         12               28   Washington             57        139              196
Minnesota                                  505        368              873   West Virginia          26         26               52
Mississippi                                 55         41               96   Wisconsin              13         22               35
Missouri                                    19         15               34   Wyoming                 0          2                2
Montana                                     10          5               15




                                                                                                  25
A P P E N D            I X   ~   C


              PERFORMANCE MEASURE 13A: Number of Inquiries Involving Complex Issues Referred for Further Action
                                     Jan–June   July–Dec   Total for 2009                    Jan–June   July–Dec   Total for 2009
Alabama                                     1          1                1   Nebraska               18         14               31
Alaska                                      1          0                1   Nevada                  0          0                0
Arizona                                     3          2                5   New Hampshire           3          0                3
Arkansas                                    8          6               14   New Jersey              1          2                3
California                                 59         38               98   New Mexico             19          8               27
Colorado                                   38         19               57   New York               22         25               47
Connecticut                                 1          1                2   North Carolina          0          0                0
Delaware                                    4          2                6   North Dakota            0          0                0
District of Columbia                        1          2                3   Ohio                    5          5               10
Florida                                    19         27               46   Oklahoma                3          7               10
Georgia                                    46         18               63   Oregon                  5         14               19
Guam                                        0          0                0   Pennsylvania            4          2                5
Hawaii                                      6          5               10   Puerto Rico             0          0                0
Idaho                                       4          7               11   Rhode Island            2          0                2
Illinois                                   28         34               62   South Carolina          3          5                8
Indiana                                     2          1                3   South Dakota            0          0                0
Iowa                                        5         11               16   Tennessee              11         16               27
Kansas                                     12         13               24   Texas – BBB            15         28               43
Kentucky                                    0          0                0   Texas – NHCOA          11         12               22
Louisiana                                   0          6                6   Utah                    3         17               20
Maine                                       2          1                3   Vermont                 0          1                1
Maryland                                   14         11               25   Virginia                8          6               13
Massachusetts                               8          3               11   Virgin Islands          0          1                1
Michigan                                    0          0                0   Washington             52         59              110
Minnesota                                  11         29               40   West Virginia          13         12               25
Mississippi                                 1          3                4   Wisconsin               5          2                7
Missouri                                   10          9               19   Wyoming                 0          1                1
Montana                                     0          1                1




                                                                                                 26
A P P E N D            I X   ~     C


                                 PERFORMANCE MEASURE 13B: Total Dollar Amount Referred for Further Action
                                       Jan–June    July–Dec    Total for 2009                     Jan–June    July–Dec    Total for 2009
Alabama                                   $3,900          $0           $3,900   Nebraska         $1,125,957    $50,048       $1,176,005
Alaska                                        $0          $0               $0   Nevada                   $0          $0               $0
Arizona                                    $678       $1,514           $2,192   New Hampshire        $9,316       $149            $9,465
Arkansas                                      $0      $2,641           $2,641   New Jersey           $2,674          $0           $2,674
California                               $33,171    $50,274           $83,445   New Mexico          $50,614   $237,115         $287,729
Colorado                                $391,294   $111,900         $503,194    New York            $19,760      $7,673          $27,433
Connecticut                                   $0        $995             $995   North Carolina           $0          $0               $0
Delaware                                 $12,191      $3,717          $15,908   North Dakota             $0          $0               $0
District of Columbia                       $333       $2,280           $2,613   Ohio                $10,338      $2,941          $13,279
Florida                                  $32,066    $66,001           $98,067   Oklahoma             $3,776      $1,792           $5,567
Georgia                                 $197,985      $1,239        $199,224    Oregon              $15,000    $90,722         $105,722
Guam                                          $0          $0               $0   Pennsylvania             $0        $107             $107
Hawaii                                      $216        $105             $321   Puerto Rico              $0          $0               $0
Idaho                                     $2,467        $778           $3,245   Rhode Island             $0          $0               $0
Illinois                                 $56,180    $46,053         $102,233    South Carolina         $607        $236             $842
Indiana                                       $0          $0               $0   South Dakota             $0          $0               $0
Iowa                                          $0      $1,562           $1,562   Tennessee            $2,011          $0           $2,011
Kansas                                  $116,585    $81,866         $198,451    Texas – BBB          $9,375    $29,363           $38,738
Kentucky                                      $0        $100             $100   Texas – NHCOA      $208,539   $223,836         $432,375
Louisiana                                     $0      $5,160           $5,160   Utah                 $5,277    $14,882           $20,160
Maine                                         $0          $0               $0   Vermont             $36,863          $0          $36,863
Maryland                                  $1,897      $2,475           $4,372   Virginia             $2,247    $13,160           $15,407
Massachusetts                             $6,000         $96           $6,096   Virgin Islands           $0          $0               $0
Michigan                                 $11,058      $2,164          $13,222   Washington          $24,342      $1,147          $25,489
Minnesota                                $28,744      $5,256          $34,001   West Virginia       $23,289    $23,305           $46,594
Mississippi                                 $785   $218,344         $219,129    Wisconsin            $1,887    $11,531           $13,419
Missouri                                  $1,754        $379           $2,133   Wyoming                  $0          $0               $0
Montana                                     $366          $0             $366




                                                                                                      27
A P P E N D            I X   ~   C


                                      PERFORMANCE MEASURE 14: Number of Complex Issues Resolved
                                     Jan–June   July–Dec   Total for 2009                    Jan–June   July–Dec   Total for 2009
Alabama                                     0          0                0   Nebraska               23         17               40
Alaska                                      1          1                2   Nevada                  3          1                4
Arizona                                     6          1                7   New Hampshire          14          4               18
Arkansas                                   13         27               40   New Jersey             20          2               22
California                                 17         18               35   New Mexico             58         91              149
Colorado                                   26         18               44   New York               23         38               61
Connecticut                                17          2               19   North Carolina          0          0                0
Delaware                                    5          5               10   North Dakota            2          3                5
District of Columbia                        1          6                7   Ohio                    5          5               10
Florida                                    21         42               63   Oklahoma                5         12               17
Georgia                                    17         14               31   Oregon                  7         17               24
Guam                                        2          0                2   Pennsylvania            0          1                1
Hawaii                                      5          3                8   Puerto Rico             0          0                0
Idaho                                      59         34               93   Rhode Island            3          0                3
Illinois                                   24         18               42   South Carolina         11         30               41
Indiana                                     2          0                2   South Dakota            0          1                1
Iowa                                       17          9               26   Tennessee              16         22               38
Kansas                                     11         10               21   Texas – BBB             6         29               35
Kentucky                                    0          0                0   Texas – NHCOA          70          9               79
Louisiana                                   1          9               10   Utah                    0         61               61
Maine                                       0          0                0   Vermont                 4          5                9
Maryland                                   73         43              116   Virginia                1          1                2
Massachusetts                              81          3               84   Virgin Islands          0          0                0
Michigan                                   12          7               19   Washington             47        115              162
Minnesota                                 495        376              871   West Virginia           0          9                9
Mississippi                                54        119              173   Wisconsin              18         17               35
Missouri                                   13          7               20   Wyoming                 0          1                1
Montana                                    11          5               16




                                                                                                 28
A P P E N D            I X   ~      C

                                 PERFORMANCE MEASURE 15: Number of Complex Issues Pending Further Action
                                        Jan–June   July–Dec   Total for 2009                    Jan–June   July–Dec   Total for 2009
Alabama                                       15         23               23   Nebraska               25         27               27
Alaska                                         1          1                1   Nevada                 19         19               19
Arizona                                        8          8                8   New Hampshire          16         16               16
Arkansas                                      12         22               22   New Jersey             14         15               15
California                                   205        221              221   New Mexico             13         42               42
Colorado                                      43         64               64   New York              121        125              125
Connecticut                                    8         15               15   North Carolina          1          1                1
Delaware                                       2          4                4   North Dakota            2          1                1
District of Columbia                           1          3                3   Ohio                   18         20               20
Florida                                      165        179              179   Oklahoma                2          2                2
Georgia                                       74         79               79   Oregon - SMP            4         10               10
Guam                                           5          6                6   Pennsylvania           15         21               21
Hawaii                                         3          6                6   Puerto Rico             2          2                2
Idaho                                          6          9                9   Rhode Island           15         42               42
Illinois                                      24         33               33   South Carolina         19         22               22
Indiana                                       10         12               12   South Dakota            0          0                0
Iowa                                          11         16               16   Tennessee              34         52               52
Kansas                                        52         66               66   Texas – BBB            57         72               72
Kentucky                                       2          3                3   Texas – NHCOA         109        130              130
Louisiana                                     16         10               10   Utah                    1          3                3
Maine                                         14         20               20   Vermont                 2          3                3
Maryland                                      10         11               11   Virginia               21         21               21
Massachusetts                                  8         12               12   Virgin Islands          1          1                1
Michigan                                      48         49               49   Washington             41         63               63
Minnesota                                     24         28               28   West Virginia          66        121              121
Mississippi                                    2          5                5   Wisconsin               4         10               10
Missouri                                      15         58               58   Wyoming                 1          1                1
Montana                                        9         10               10




                                                                                                    29
A P P E N D            I X   ~   C


                PERFORMANCE MEASURE 16: Cost Avoidance on Behalf of Medicare, Medicaid, Beneficiaries, or Others
                                     Jan–June    July–Dec    Total for 2009                    Jan–June    July–Dec    Total for 2009
Alabama                                     $0          $0               $0   Nebraska                $0    $13,877           $13,877
Alaska                                      $0          $0               $0   Nevada                  $0          $0               $0
Arizona                                     $0          $0               $0   New Hampshire           $0          $0               $0
Arkansas                                  $135    $11,214           $11,349   New Jersey              $0        $956             $956
California                                  $0          $0               $0   New Mexico         $22,864   $295,136         $318,000
Colorado                                $2,397      $2,657           $5,054   New York                $0          $0               $0
Connecticut                                 $0          $0               $0   North Carolina          $0          $0               $0
Delaware                                   $85      $8,356           $8,440   North Dakota            $0          $0               $0
District of Columbia                        $0          $0               $0   Ohio                    $0      $2,211           $2,211
Florida                                     $0          $0               $0   Oklahoma                $0          $0               $0
Georgia                                 $2,362          $0           $2,362   Oregon                  $0          $0               $0
Guam                                        $0          $0               $0   Pennsylvania            $0          $0               $0
Hawaii                                      $0          $0               $0   Puerto Rico             $0          $0               $0
Idaho                                  $18,194    $26,009           $44,203   Rhode Island            $0          $0               $0
Illinois                                $5,861          $0           $5,861   South Carolina          $0          $0               $0
Indiana                                     $0          $0               $0   South Dakota            $0          $0               $0
Iowa                                        $0        $908             $908   Tennessee               $0      $2,338           $2,338
Kansas                                      $0      $1,696           $1,696   Texas – BBB             $0          $0               $0
Kentucky                                    $0          $0               $0   Texas – NHCOA     $131,920          $0        $131,920
Louisiana                                   $0          $0               $0   Utah                    $0      $4,905           $4,905
Maine                                       $0          $0               $0   Vermont                 $0          $0               $0
Maryland                                    $0          $0               $0   Virginia                $0          $0               $0
Massachusetts                               $0          $0               $0   Virgin Islands          $0          $0               $0
Michigan                                    $0          $0               $0   Washington              $0          $0               $0
Minnesota                               $4,197        $112           $4,309   West Virginia           $0          $0               $0
Mississippi                                 $0          $0               $0   Wisconsin               $0      $5,478           $5,478
Missouri                                $1,100          $0           $1,100   Wyoming                 $0          $0               $0
Montana                                     $0          $0               $0




                                                                                                   30
A P P E N D            I X   ~   C


                        PERFORMANCE MEASURE 17A: Actual Medicare Funds Recovered Attributable to the Projects
                                     Jan–June    July–Dec    Total for 2009                    Jan–June   July–Dec    Total for 2009
Alabama                                     $0          $0               $0   Nebraska               $0    $65,184           $65,184
Alaska                                      $0          $0               $0   Nevada                 $0          $0               $0
Arizona                                     $0          $0               $0   New Hampshire          $0          $0               $0
Arkansas                                    $0      $2,312           $2,312   New Jersey             $0          $0               $0
California                                  $0          $0               $0   New Mexico             $0          $0               $0
Colorado                                    $0        $439             $439   New York               $0        $630             $630
Connecticut                                 $0          $0               $0   North Carolina         $0          $0               $0
Delaware                                    $0      $1,949           $1,949   North Dakota           $0          $0               $0
District of Columbia                        $0          $0               $0   Ohio                   $0      $2,924           $2,924
Florida                                 $1,808          $0           $1,808   Oklahoma               $0          $0               $0
Georgia                                     $0          $0               $0   Oregon                 $0          $0               $0
Guam                                        $0          $0               $0   Pennsylvania           $0          $0               $0
Hawaii                                      $0          $0               $0   Puerto Rico            $0          $0               $0
Idaho                                       $0          $0               $0   Rhode Island           $0          $0               $0
Illinois                                  $893          $0             $893   South Carolina         $0          $0               $0
Indiana                                     $0          $0               $0   South Dakota           $0          $0               $0
Iowa                                        $0          $0               $0   Tennessee              $0          $0               $0
Kansas                                      $0          $0               $0   Texas – BBB            $0          $0               $0
Kentucky                                    $0          $0               $0   Texas – NHCOA          $0          $0               $0
Louisiana                                   $0          $0               $0   Utah                   $0          $0               $0
Maine                                       $0          $0               $0   Vermont                $0          $0               $0
Maryland                                    $0          $0               $0   Virginia               $0          $0               $0
Massachusetts                               $0          $0               $0   Virgin Islands         $0          $0               $0
Michigan                                    $0          $0               $0   Washington             $0          $0               $0
Minnesota                                   $0          $0               $0   West Virginia          $0          $0               $0
Mississippi                                 $0          $0               $0   Wisconsin             $37          $0              $37
Missouri                                    $0          $0               $0   Wyoming                $0          $0               $0
Montana                                     $0          $0               $0




                                                                                                   31
A P P E N D            I X   ~   C


                        PERFORMANCE MEASURE 17B: Actual Medicaid Funds Recovered Attributable to the Projects
                                     Jan–June    July–Dec   Total for 2009                    Jan–June   July–Dec    Total for 2009
Alabama                                     $0         $0               $0   Nebraska               $0      $7,861           $7,861
Alaska                                      $0         $0               $0   Nevada                 $0          $0               $0
Arizona                                     $0         $0               $0   New Hampshire          $0          $0               $0
Arkansas                                    $0         $0               $0   New Jersey             $0          $0               $0
California                                  $0         $0               $0   New Mexico             $0          $0               $0
Colorado                                    $0         $0               $0   New York               $0          $0               $0
Connecticut                                 $0         $0               $0   North Carolina         $0          $0               $0
Delaware                                    $0         $0               $0   North Dakota           $0          $0               $0
District of Columbia                        $0         $0               $0   Ohio                   $0          $0               $0
Florida                                     $0         $0               $0   Oklahoma               $0          $0               $0
Georgia                                     $0         $0               $0   Oregon                 $0          $0               $0
Guam                                        $0         $0               $0   Pennsylvania           $0          $0               $0
Hawaii                                      $0         $0               $0   Puerto Rico            $0          $0               $0
Idaho                                       $0         $0               $0   Rhode Island           $0          $0               $0
Illinois                                    $0         $0               $0   South Carolina         $0          $0               $0
Indiana                                     $0         $0               $0   South Dakota           $0          $0               $0
Iowa                                    $2,058         $0           $2,058   Tennessee              $0          $0               $0
Kansas                                      $0         $0               $0   Texas – BBB            $0          $0               $0
Kentucky                                    $0         $0               $0   Texas – NHCOA          $0          $0               $0
Louisiana                                   $0         $0               $0   Utah                   $0          $0               $0
Maine                                       $0         $0               $0   Vermont                $0          $0               $0
Maryland                                    $0         $0               $0   Virginia               $0          $0               $0
Massachusetts                               $0         $0               $0   Virgin Islands         $0          $0               $0
Michigan                                    $0         $0               $0   Washington             $0          $0               $0
Minnesota                                   $0         $0               $0   West Virginia          $0          $0               $0
Mississippi                                 $0         $0               $0   Wisconsin              $0          $0               $0
Missouri                                    $0         $0               $0   Wyoming                $0          $0               $0
Montana                                     $0         $0               $0




                                                                                                  32
A P P E N D            I X      ~   C


                             PERFORMANCE MEASURE 17C: Actual Savings to Beneficiaries Attributable to the Projects
                                        Jan–June    July–Dec    Total for 2009                    Jan–June   July–Dec    Total for 2009
Alabama                                        $0          $0               $0   Nebraska              $63      $2,052           $2,115
Alaska                                         $0          $0               $0   Nevada                 $0          $0               $0
Arizona                                        $0          $0               $0   New Hampshire          $0          $0               $0
Arkansas                                   $3,789          $0           $3,789   New Jersey             $0          $0               $0
California                                   $636        $180             $816   New Mexico           $887      $1,327           $2,214
Colorado                                   $1,044    $10,402           $11,446   New York             $494          $0             $494
Connecticut                                    $0       $995              $995   North Carolina         $0          $0               $0
Delaware                                       $0          $0               $0   North Dakota           $0          $0               $0
District of Columbia                           $0          $0               $0   Ohio                   $0          $0               $0
Florida                                        $0          $0               $0   Oklahoma               $0          $0               $0
Georgia                                       $38        $203             $241   Oregon                 $0          $0               $0
Guam                                          $64          $0              $64   Pennsylvania           $0          $0               $0
Hawaii                                         $0          $0               $0   Puerto Rico            $0          $0               $0
Idaho                                      $3,977      $2,461           $6,439   Rhode Island           $0          $0               $0
Illinois                                       $0          $0               $0   South Carolina         $0          $0               $0
Indiana                                        $0          $0               $0   South Dakota           $0          $0               $0
Iowa                                           $0          $0               $0   Tennessee              $0      $2,011           $2,011
Kansas                                    $17,425       $200           $17,625   Texas – BBB            $0          $0               $0
Kentucky                                       $0          $0               $0   Texas – NHCOA          $0          $0               $0
Louisiana                                      $0          $0               $0   Utah                   $0        $870             $870
Maine                                          $0          $0               $0   Vermont                $0          $0               $0
Maryland                                       $0          $0               $0   Virginia               $0          $0               $0
Massachusetts                                  $0          $0               $0   Virgin Islands         $0          $0               $0
Michigan                                       $0          $0               $0   Washington             $0          $0               $0
Minnesota                                      $0          $0               $0   West Virginia          $0          $0               $0
Mississippi                                    $0          $0               $0   Wisconsin              $0          $0               $0
Missouri                                       $0          $0               $0   Wyoming                $0          $0               $0
Montana                                      $112          $0             $112




                                                                                                      33
A P P E N D            I X   ~   C


                                     PERFORMANCE MEASURE 17D: Other Savings Attributable to the Projects
                                     Jan–June    July–Dec   Total for 2009                    Jan–June     July–Dec   Total for 2009
Alabama                                     $0         $0               $0   Nebraska            $2,387     $43,901          $46,289
Alaska                                      $0         $0               $0   Nevada                  $0          $0               $0
Arizona                                     $0         $0               $0   New Hampshire           $0          $0               $0
Arkansas                                    $0       $775             $775   New Jersey              $0          $0               $0
California                                  $0         $0               $0   New Mexico              $0          $0               $0
Colorado                                    $0         $0               $0   New York                $0          $0               $0
Connecticut                                 $0         $0               $0   North Carolina          $0          $0               $0
Delaware                                    $0         $0               $0   North Dakota            $0          $0               $0
District of Columbia                        $0         $0               $0   Ohio                   $71          $0              $71
Florida                                     $0         $0               $0   Oklahoma             $362           $0             $362
Georgia                                     $0         $0               $0   Oregon                  $0          $0               $0
Guam                                        $0         $0               $0   Pennsylvania            $0          $0               $0
Hawaii                                      $0         $0               $0   Puerto Rico             $0          $0               $0
Idaho                                  $30,966         $0          $30,966   Rhode Island            $0          $0               $0
Illinois                                    $0         $0               $0   South Carolina          $0          $0               $0
Indiana                                     $0         $0               $0   South Dakota            $0          $0               $0
Iowa                                        $0         $0               $0   Tennessee               $0          $0               $0
Kansas                                      $0         $0               $0   Texas – BBB             $0          $0               $0
Kentucky                                    $0         $0               $0   Texas – NHCOA           $0          $0               $0
Louisiana                                   $0         $0               $0   Utah                    $0          $0               $0
Maine                                       $0         $0               $0   Vermont                 $0          $0               $0
Maryland                                    $0         $0               $0   Virginia                $0          $0               $0
Massachusetts                               $0         $0               $0   Virgin Islands          $0          $0               $0
Michigan                                    $0         $0               $0   Washington              $0          $0               $0
Minnesota                                   $0         $0               $0   West Virginia           $0          $0               $0
Mississippi                                 $0         $0               $0   Wisconsin               $0          $0               $0
Missouri                                    $0         $0               $0   Wyoming                 $0          $0               $0
Montana                                     $0       $272             $272




                                                                                                   34
         A P P E N D I X               ~     D




                                        Individual Project Results for 2009
The following tables provide the results for each performance measure for each of the 55 Senior Medicare Patrol Projects operating in
2009. Each table provides the performance measure results for the two 6-month reporting periods.

Totals may not add up because of rounding.

For performance measure #1,“Total number of active volunteers,” many of the volunteers are the same in both of the two 6-month
periods and therefore the numbers do not sum to the total for the year.

For performance measure #13A, “Number of inquiries involving complex issues referred for further action,” the same case may have
multiple referrals reported in both of the two 6-month periods, but only counts as one referral for the year total.

For performance measure #15, “Number of complex issues pending further action,” the same issue can continue through numerous
reporting periods for a project. The number of issues is not a unique count and therefore the data from the two 6-month periods do not
sum to the year total.




                                                                                                        35
A P P E N D       I X ~ D
                                           Alabama – Department of Senior Services, Montgomery
In operation since: July 2006
                                                                                          Jan–June        July–Dec   Total for 2009
                                    PEFORMANCE MEASURES
1            Total number of active volunteers                                                  27              20              32
2            Total number of volunteer training hours                                           54              46             100
3            Total number of volunteer work hours                                           12,058           8,309          20,367
4            Number of media outreach activities                                            63,927          26,570          90,497
5            Number of community outreach education events conducted                           211              88             299
6            Estimated number of people reached by community outreach education
             events                                                                         32,978          30,340          63,318
7            Number of group education sessions for beneficiaries                              164             161             325
8A           Number of beneficiaries who attended group education sessions                   6,126           5,464          11,590
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   6              0                6
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           5              0                5
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 54              0               54
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        85             67              152
10           Total number of simple inquiries received                                         354            331              685
11           Total number of simple inquiries resolved                                         353            328              681
12           Number of inquiries involving complex issues received                              12              0               12
13A          Number of inquiries involving complex issues referred for further action            1              1                1
13B          Total dollar amount referred for further action                                $3,900             $0           $3,900
14           Number of complex issues resolved                                                   0              0                0
15           Number of complex issues pending further action                                    15             23               23
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0




                                                                                                     36
 A P P E N D         I X ~ D
                                     Alaska – Medicare Senior Information & Referral Office, Anchorage
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                     PEFORMANCE MEASURES
1            Total number of active volunteers                                                  26            100              111
2            Total number of volunteer training hours                                           31           2,151           2,182
3            Total number of volunteer work hours                                                0              0                0
4            Number of media outreach activities                                                 5            254              259
5            Number of community outreach education events conducted                            29             21               50
6            Estimated number of people reached by community outreach education
             events                                                                          3,567           2,983           6,550
7            Number of group education sessions for beneficiaries                                0              3                3
8A           Number of beneficiaries who attended group education sessions                       0            129              129
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0              0                0
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0              0                0
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0              0                0
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                           3             15               18
11           Total number of simple inquiries resolved                                           3             15               18
12           Number of inquiries involving complex issues received                               1              1                2
13A          Number of inquiries involving complex issues referred for further action            1              0                1
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   1              1                2
15           Number of complex issues pending further action                                     1              1                1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0




                                                                                                     37
A P P E N D       I X       ~     D
                                       Arizona – Arizona Division of Aging and Adult Services, Phoenix
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                   3             18               21
2            Total number of volunteer training hours                                            0            150              150
3            Total number of volunteer work hours                                              173            944            1,118
4            Number of media outreach activities                                                 6              0                6
5            Number of community outreach education events conducted                            18             32               50
6            Estimated number of people reached by community outreach education
             events                                                                          1,480           3,209           4,689
7            Number of group education sessions for beneficiaries                               35             45               80
8A           Number of beneficiaries who attended group education sessions                   1,499           2,551           4,050
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  36              4               40
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          39              0               39
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 33              3               36
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        10              3               13
10           Total number of simple inquiries received                                          57             19               76
11           Total number of simple inquiries resolved                                          57             19               76
12           Number of inquiries involving complex issues received                               6              8               14
13A          Number of inquiries involving complex issues referred for further action            3              2                5
13B          Total dollar amount referred for further action                                  $678          $1,514          $2,192
14           Number of complex issues resolved                                                   6              1                7
15           Number of complex issues pending further action                                     8              8                8
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0




                                                                                                     38
A P P E N D       I X       ~     D
             Arkansas – Arkansas Department of Human Services, Division of Aging and Adult Services, Little Rock
In operation since: July 2002                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  31              9               32
2            Total number of volunteer training hours                                           71              0               71
3            Total number of volunteer work hours                                              338            183              521
4            Number of media outreach activities                                                32             38               70
5            Number of community outreach education events conducted                            15              6               21
6            Estimated number of people reached by community outreach education
             events                                                                          1,205           1,652           2,857
7            Number of group education sessions for beneficiaries                               29             13               42
8A           Number of beneficiaries who attended group education sessions                   1,310            967            2,277
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 178             92              270
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         262            143              405
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                389            214              603
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       171            167              338
10           Total number of simple inquiries received                                         100            126              226
11           Total number of simple inquiries resolved                                         100            126              226
12           Number of inquiries involving complex issues received                              24             21               45
13A          Number of inquiries involving complex issues referred for further action            8              6               14
13B          Total dollar amount referred for further action                                    $0          $2,641          $2,641
14           Number of complex issues resolved                                                  13             27               40
15           Number of complex issues pending further action                                    12             22               22
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others         $135         $11,214         $11,349
17A          Actual Medicare funds recovered attributable to the projects                       $0          $2,312          $2,312
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                   $3,789             $0           $3,789
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0           $775             $775
17A –17D     Total savings attributable to the projects                                     $3,789          $3,087          $6,875




                                                                                                     39
A P P E N D       I X       ~     D
                 California – California Health Insurance Counseling Advocacy Programs Association, Santa Ana
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                 152            108              222
2            Total number of volunteer training hours                                          218            112              330
3            Total number of volunteer work hours                                            1,130            867            1,997
4            Number of media outreach activities                                                75             69              144
5            Number of community outreach education events conducted                            71             26               97
6            Estimated number of people reached by community outreach education
             events                                                                         26,218           9,435          35,653
7            Number of group education sessions for beneficiaries                              399            281              680
8A           Number of beneficiaries who attended group education sessions                  11,511          10,420          21,931
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   8              4               12
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          16              5               21
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 22              6               28
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                          10              9               19
11           Total number of simple inquiries resolved                                           9              7               16
12           Number of inquiries involving complex issues received                              72             49              121
13A          Number of inquiries involving complex issues referred for further action           59             38               98
13B          Total dollar amount referred for further action                               $33,171         $50,274         $83,445
14           Number of complex issues resolved                                                  17             18               35
15           Number of complex issues pending further action                                   205            221              221
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                     $636           $180             $816
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                       $636           $180             $816


                                                                                                     40
A P P E N D       I X       ~     D
                                                 Colorado – Colorado Division of Insurance, Denver
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  17             58               65
2            Total number of volunteer training hours                                          363            544              907
3            Total number of volunteer work hours                                               15             24               39
4            Number of media outreach activities                                                16             12               28
5            Number of community outreach education events conducted                            14              9               23
6            Estimated number of people reached by community outreach education
             events                                                                            776            842            1,618
7            Number of group education sessions for beneficiaries                               44             41               85
8A           Number of beneficiaries who attended group education sessions                     992           1,060           2,052
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 178             11              189
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         272              8              280
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                488             15              503
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0             12               12
10           Total number of simple inquiries received                                         114             80              194
11           Total number of simple inquiries resolved                                         114             77              191
12           Number of inquiries involving complex issues received                              39             33               72
13A          Number of inquiries involving complex issues referred for further action           38             19               57
13B          Total dollar amount referred for further action                              $391,294        $111,900        $503,194
14           Number of complex issues resolved                                                  26             18               44
15           Number of complex issues pending further action                                    43             64               64
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others       $2,397          $2,657          $5,054
17A          Actual Medicare funds recovered attributable to the projects                       $0           $439             $439
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                   $1,044         $10,402         $11,446
17D          Other savings attributable to the projects (e.g., Supplemental Insurance )         $0             $0               $0
17A –17D     Total savings attributable to the projects                                     $1,044         $10,841         $11,885


                                                                                                     41
A P P E N D       I X       ~     D
                    Connecticut – Connecticut Department of Social Services, Aging Services Division, Hartford
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  39            143              144
2            Total number of volunteer training hours                                            0           3,221           3,221
3            Total number of volunteer work hours                                              220             42              262
4            Number of media outreach activities                                                18              2               20
5            Number of community outreach education events conducted                            37             70              107
6            Estimated number of people reached by community outreach education
             events                                                                          3,024           9,960          12,984
7            Number of group education sessions for beneficiaries                               37             21               58
8A           Number of beneficiaries who attended group education sessions                   1,154            552            1,706
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 287            209              496
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         286            208              494
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                493            210              703
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         3              0                3
10           Total number of simple inquiries received                                         274            475              749
11           Total number of simple inquiries resolved                                         274            469              743
12           Number of inquiries involving complex issues received                              18              4               22
13A          Number of inquiries involving complex issues referred for further action            1              1                2
13B          Total dollar amount referred for further action                                    $0           $995             $995
14           Number of complex issues resolved                                                  17              2               19
15           Number of complex issues pending further action                                     8             15               15
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0           $995             $995
17D          Other savings attributable to the projects                                         $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0           $995             $995


                                                                                                     42
A P P E N D       I X       ~     D

                Delaware – Delaware Partners, Division of Aging and Adults With Physical Disabilities, New Castle
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  12             18               22
2            Total number of volunteer training hours                                          232            179              411
3            Total number of volunteer work hours                                              567            370              937
4            Number of media outreach activities                                               785            473            1,258
5            Number of community outreach education events conducted                            30             66               96
6            Estimated number of people reached by community outreach education
             events                                                                          2,787           5,070           7,857
7            Number of group education sessions for beneficiaries                                4              7               11
8A           Number of beneficiaries who attended group education sessions                      77            122              199
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  11             37               48
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          59             47              106
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 23             65               88
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       178            170              348
10           Total number of simple inquiries received                                          18             73               91
11           Total number of simple inquiries resolved                                          18             71               89
12           Number of inquiries involving complex issues received                               5              5               10
13A          Number of inquiries involving complex issues referred for further action            4              2                6
13B          Total dollar amount referred for further action                               $12,191          $3,717         $15,908
14           Number of complex issues resolved                                                   5              5               10
15           Number of complex issues pending further action                                     2              4                4
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others          $85          $8,356          $8,440
17A          Actual Medicare funds recovered attributable to the projects                       $0          $1,949          $1,949
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0          $1,949          $1,949

                                                                                                     43
A P P E N D       I X       ~     D
                            District of Columbia – The AARP Legal Counsel for the Elderly, Washington, DC
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  48             40               54
2            Total number of volunteer training hours                                          193            445              638
3            Total number of volunteer work hours                                              369            363              732
4            Number of media outreach activities                                               224            141              365
5            Number of community outreach education events conducted                            28             39               67
6            Estimated number of people reached by community outreach education
             events                                                                          3,494           5,624           9,118
7            Number of group education sessions for beneficiaries                               30             29               59
8A           Number of beneficiaries who attended group education sessions                     608            636            1,244
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 138            105              243
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         251            205              456
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                399            341              740
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         4              8               12
10           Total number of simple inquiries received                                          30             24               54
11           Total number of simple inquiries resolved                                          30             23               53
12           Number of inquiries involving complex issues received                               4              3                7
13A          Number of inquiries involving complex issues referred for further action            1              2                3
13B          Total dollar amount referred for further action                                  $333          $2,280          $2,613
14           Number of complex issues resolved                                                   1              6                7
15           Number of complex issues pending further action                                     1              3                3
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     44
A P P E N D       I X       ~     D
                                   Florida – Area Agency on Aging of Pasco Pinellas, Inc., St. Petersburg

In operation since: July 1999                                                             Jan–June          July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  66               78              101
2            Total number of volunteer training hours                                           62               40              102
3            Total number of volunteer work hours                                              719              694            1,413
4            Number of media outreach activities                                               386              253              639
5            Number of community outreach education events conducted                           111              103              214
6            Estimated number of people reached by community outreach education
             events                                                                          7,102             7,503          14,605
7            Number of group education sessions for beneficiaries                              111              172              283
8A           Number of beneficiaries who attended group education sessions                   3,520             5,052           8,572
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  93              104              197
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         138              144              282
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                174              205              379
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0               15               15
10           Total number of simple inquiries received                                          72              100              172
11           Total number of simple inquiries resolved                                          70               97              167
12           Number of inquiries involving complex issues received                              39               52               91
13A          Number of inquiries involving complex issues referred for further action           19               27               46
13B          Total dollar amount referred for further action                               $32,066           $66,001         $98,067
14           Number of complex issues resolved                                                  21               42               63
15           Number of complex issues pending further action                                   165              179              179
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0               $0               $0
17A          Actual Medicare funds recovered attributable to the projects                   $1,808               $0           $1,808
17B          Actual Medicaid funds recovered attributable to the projects                       $0               $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0               $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0               $0               $0
17A –17D     Total savings attributable to the projects                                     $1,808               $0           $1,808

                                                                                                     45
A     P   P E N D    I X      ~     D

                    Georgia – GeorgiaCares Department of Human Resources, Division of Aging Services, Atlanta
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                     PEFORMANCE MEASURES
1            Total number of active volunteers                                                  65             50               87
2            Total number of volunteer training hours                                          353             81              434
3            Total number of volunteer work hours                                              623           1,139           1,762
4            Number of media outreach events                                                 4,559              72           4,631
5            Number of community outreach education events conducted                            70             55              125
6            Estimated number of people reached by community outreach education
             events                                                                         10,329           7,578          17,907
7            Number of group education sessions for beneficiaries                              168            152              320
8A           Number of beneficiaries who attended group education sessions                   4,769           3,549           8,318
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 687            811            1,498
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         887           1,007           1,894
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                              1,466           1,429           2,895
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        51             73              124
10           Total number of simple inquiries received                                         700            807            1,507
11           Total number of simple inquiries resolved                                         628            694            1,322
12           Number of inquiries involving complex issues received                              45             23               68
13A          Number of inquiries involving complex issues referred for further action           46             18               63
13B          Total dollar amount referred for further action                              $197,985          $1,239        $199,224
14           Number of complex issues resolved                                                  17             14               31
15           Number of complex issues pending further action                                    74             79               79
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others       $2,362             $0           $2,362
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                      $38           $203             $241
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                        $38           $203             $241

                                                                                                     46
A P P E N D       I X       ~     D
                    Guam – Division of Senior Citizens, Department of Public Health & Social Services, Mangilao
In operation since: July 2005                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                   9             11               16
2            Total number of volunteer training hours                                           17            187              204
3            Total number of volunteer work hours                                              259            767            1,025
4            Number of media outreach activities                                            16,002             35           16,037
5            Number of community outreach education events conducted                            15             23               38
6            Estimated number of people reached by community outreach education
             events                                                                          2,655            710            3,365
7            Number of group education sessions for beneficiaries                               14             67               81
8A           Number of beneficiaries who attended group education sessions                     170           1,032           1,202
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  70            259              329
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          52            270              322
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 98            413              511
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         5            111              116
10           Total number of simple inquiries received                                         244            437              681
11           Total number of simple inquiries resolved                                         244            437              681
12           Number of inquiries involving complex issues received                               1              0                1
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   2              0                2
15           Number of complex issues pending further action                                     5              6                6
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                      $64             $0              $64
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                        $64             $0              $64

                                                                                                     47
A P P E N D       I X       ~     D
                                         Hawaii – State of Hawaii Executive Office on Aging, Honolulu
In operation since: July 1997                                                             Jan–June           July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  38                34               53
2            Total number of volunteer training hours                                          243               127              370
3            Total number of volunteer work hours                                               66               103              169
4            Number of media outreach activities                                                59                 2               61
5            Number of community outreach education events conducted                            17                10               27
6            Estimated number of people reached by community outreach education
             events                                                                          3,440              2,701           6,141
7            Number of group education sessions for beneficiaries                               31                 8               39
8A           Number of beneficiaries who attended group education sessions                     607               472            1,079
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  80                47              127
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         111                61              172
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 82                83              165
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         5                 2                7
10           Total number of simple inquiries received                                          42                42               84
11           Total number of simple inquiries resolved                                          42                42               84
12           Number of inquiries involving complex issues received                               8                12               20
13A          Number of inquiries involving complex issues referred for further action            6                 5               10
13B          Total dollar amount referred for further action                                  $216              $105             $321
14           Number of complex issues resolved                                                   5                 3                8
15           Number of complex issues pending further action                                     3                 6                6
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0                $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0                $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0                $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0                $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0                $0               $0
17A –17D     Total savings attributable to the projects                                         $0                $0               $0



                                                                                                        48
A P P E N D       I X       ~     D
                                                     Idaho – Idaho Commission on Aging, Boise
In operation since: July 1999                                                             Jan–June         July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  113            168              190
2            Total number of volunteer training hours                                           757           1,273           2,029
3            Total number of volunteer work hours                                            1,853            1,922           3,775
4            Number of media outreach activities                                                43               49              92
5            Number of community outreach education events conducted                             28             34               62
6            Estimated number of people reached by community outreach education
             events                                                                          4,122            6,802          10,924
7            Number of group education sessions for beneficiaries                                97            125              222
8A           Number of beneficiaries who attended group education sessions                   3,803            4,867           8,670
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  107             36              143
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          120             88              208
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 240            192              432
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                     1,263            3,278           4,541
10           Total number of simple inquiries received                                       1,007            1,234           2,241
11           Total number of simple inquiries resolved                                       1,006            1,234           2,240
12           Number of inquiries involving complex issues received                               61             41              102
13A          Number of inquiries involving complex issues referred for further action            4               7               11
13B          Total dollar amount referred for further action                                $2,467            $778           $3,245
14           Number of complex issues resolved                                                   59             34               93
15           Number of complex issues pending further action                                      6              9                9
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others      $18,194          $26,009         $44,203
17A          Actual Medicare funds recovered attributable to the projects                        $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                   $3,977           $2,461          $6,439
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)     $30,966              $0          $30,966
17A –17D     Total savings attributable to the projects                                    $34,943           $2,461         $37,405



                                                                                                      49
A P P E N D       I X       ~     D
                                                               Illinois – AgeOptions, Oak Park
In operation since: July 2006                                                                    Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                         21             16               29
2            Total number of volunteer training hours                                                  23             17               40
3            Total number of volunteer work hours                                                      63            124              187
4            Number of media outreach activities                                                       57             54              111
5            Number of community outreach education events conducted                                  121             86              207
6            Estimated number of people reached by community outreach education
             events                                                                                10,289           8,129          18,418
7            Number of group education sessions for beneficiaries                                     155            150              305
8A           Number of beneficiaries who attended group education sessions                          4,464           4,180           8,644
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                         98             31              129
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                                125             49              174
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                       211             47              258
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                              176            157              333
10           Total number of simple inquiries received                                                205            225              430
11           Total number of simple inquiries resolved                                                204            225              429
12           Number of inquiries involving complex issues received                                     36             38               74
13A          Number of inquiries involving complex issues referred for further action                  28             34               62
13B          Total dollar amount referred for further action                                      $56,180         $46,053        $102,233
14           Number of complex issues resolved                                                         24             18               42
15           Number of complex issues pending further action                                           24             33               33
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others              $5,861             $0           $5,861
17A          Actual Medicare funds recovered attributable to the projects                            $893             $0             $893
17B          Actual Medicaid funds recovered attributable to the projects                              $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                              $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                 $0             $0               $0
17A –17D     Total savings attributable to the projects                                              $893             $0             $893



                                                                                                            50
A P P E N D       I X       ~     D
                     Indiana – Indiana Association of Area Agencies on Aging, Education Institute, Indianapolis
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  12              2               13
2            Total number of volunteer training hours                                          140              0              140
3            Total number of volunteer work hours                                              518              10             528
4            Number of media outreach activities                                                23           2,611           2,634
5            Number of community outreach education events conducted                            39             54               93
6            Estimated number of people reached by community outreach education
             events                                                                         11,253          21,050          32,303
7            Number of group education sessions for beneficiaries                               59             51              110
8A           Number of beneficiaries who attended group education sessions                     953           1,346           2,299
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 183             66              249
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         270             90              360
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                382            128              510
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         9             15               24
10           Total number of simple inquiries received                                          24             96              120
11           Total number of simple inquiries resolved                                          24             95              119
12           Number of inquiries involving complex issues received                               8              0                8
13A          Number of inquiries involving complex issues referred for further action            2              1                3
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   2              0                2
15           Number of complex issues pending further action                                    10             12               12
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     51
A    P   P E N D   I X      ~      D
                                            Iowa – Hawkeye Valley Area Agency on Aging, Waterloo
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                       PEFORMANCE MEASURES
1            Total number of active volunteers                                                  87             71              102
2            Total number of volunteer training hours                                          201             44              245
3            Total number of volunteer work hours                                            1,107            954            2,061
4            Number of media outreach activities                                                58             79              137
5            Number of community outreach education events conducted                            25             26               51
6            Estimated number of people reached by community outreach education
             events                                                                          2,000           2,200           4,200
7            Number of group education sessions for beneficiaries                              389            464              853
8A           Number of beneficiaries who attended group education sessions                   8,155          10,831          18,986
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  66            255              321
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         140            499              639
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                268            819            1,087
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        11             22               33
10           Total number of simple inquiries received                                         116             61              177
11           Total number of simple inquiries resolved                                         116             61              177
12           Number of inquiries involving complex issues received                              12             15               27
13A          Number of inquiries involving complex issues referred for further action            5             11               16
13B          Total dollar amount referred for further action                                    $0          $1,562          $1,562
14           Number of complex issues resolved                                                  17              9               26
15           Number of complex issues pending further action                                    11             16               16
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0           $908             $908
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                   $2,058             $0           $2,058
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                     $2,058             $0           $2,058




                                                                                                     52
A P P E N D       I X       ~     D
                                                          Kansas – Department on Aging, Topeka
In operation since: July 1997                                                              Jan–June           July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                     46              18               52
2            Total number of volunteer training hours                                              43             110              153
3            Total number of volunteer work hours                                                 130             297              428
4            Number of media outreach activities                                                    7              19               26
5            Number of community outreach education events conducted                               11              10               21
6            Estimated number of people reached by community outreach education
             events                                                                               839            1,247           2,086
7            Number of group education sessions for beneficiaries                                  37              10               47
8A           Number of beneficiaries who attended group education sessions                       1,519            411            1,930
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                    127             101              228
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                             96              85              181
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                    96              98              194
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                           16              14               30
10           Total number of simple inquiries received                                             95              82              177
11           Total number of simple inquiries resolved                                             85              81              166
12           Number of inquiries involving complex issues received                                 17              22               39
13A          Number of inquiries involving complex issues referred for further action              12              13               24
13B          Total dollar amount referred for further action                                $116,585           $81,866        $198,451
14           Number of complex issues resolved                                                     11              10               21
15           Number of complex issues pending further action                                       52              66               66
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others              $0           $1,696          $1,696
17A          Actual Medicare funds recovered attributable to the projects                          $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                          $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                    $17,425             $200          $17,625
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)             $0              $0               $0
17A –17D     Total savings attributable to the projects                                      $17,425             $200          $17,625



                                                                                                         53
A P P E N D       I X       ~     D
            Kentucky – Department of Housing & Family Services, Office for Aging and Disabled Citizens, Louisville
In operation since: July 2001                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  32             41               59
2            Total number of volunteer training hours                                          117            146              263
3            Total number of volunteer work hours                                              504            643            1,147
4            Number of media outreach activities                                                98            141              239
5            Number of community outreach education events conducted                            10             63               73
6            Estimated number of people reached by community outreach education
             events                                                                            673           6,817           7,490
7            Number of group education sessions for beneficiaries                               20             32               52
8A           Number of beneficiaries who attended group education sessions                     478            724            1,202
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  96            141              237
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         199            239              438
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                254            380              634
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       408            712            1,120
10           Total number of simple inquiries received                                         866            990            1,856
11           Total number of simple inquiries resolved                                         864            990            1,854
12           Number of inquiries involving complex issues received                               0              1                1
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0           $100             $100
14           Number of complex issues resolved                                                   0              0                0
15           Number of complex issues pending further action                                     2              3                3
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     54
A P P E N D        I X       ~     D
                                                    Louisiana –EQ Health Solutions, Baton Rouge
In operation since: June 2009*                                                                       Jan–June              July–Dec   Total for 2009
                                       PEFORMANCE MEASURES
1             Total number of active volunteers                                                               1                 21               22
2             Total number of volunteer training hours                                                        0                118              118
3             Total number of volunteer work hours                                                            3                 44               47
4             Number of media outreach activities                                                             0                 23               23
5             Number of community outreach education events conducted                                         0                  7                7
6             Estimated number of people reached by community outreach education
              events                                                                                          0                666              666
7             Number of group education sessions for beneficiaries                                            0                 12               12
8A            Number of beneficiaries who attended group education sessions                                   0                471              471
8B            Increase in the number of beneficiaries who understand how reading their
              Medicare Summary Notice can help identify billing fraud or errors                               0                 16               16
8C            Increase in the number of beneficiaries who understand why it is important
              to seek assistance with billing questions                                                       0                 20               20
8D            Increase in the number of beneficiaries who know why it is important to
              protect their Medicare and Social Security numbers                                              0                 46               46
9             Number of one-on-one counseling sessions held with or on behalf of a
              beneficiary                                                                                     0                 15               15
10            Total number of simple inquiries received                                                       4                 35               39
11            Total number of simple inquiries resolved                                                       4                 35               39
12            Number of inquiries involving complex issues received                                           1                 16               17
13A           Number of inquiries involving complex issues referred for further action                        0                  6                6
13B           Total dollar amount referred for further action                                                $0              $5,160          $5,160
14            Number of complex issues resolved                                                               1                  9               10
15            Number of complex issues pending further action                                                16                 10               10
16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0                 $0               $0
17A           Actual Medicare funds recovered attributable to the projects                                   $0                 $0               $0
17B           Actual Medicaid funds recovered attributable to the projects                                   $0                 $0               $0
17C           Actual savings to beneficiaries attributable to the projects                                   $0                 $0               $0
17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0                 $0               $0
17A –17D      Total savings attributable to the projects                                                     $0                 $0               $0

* EQ Health Solutions replaced Vernon Parish Council on Aging, Inc. as the Senior Medicare Patrol Project in June 2009.

                                                                                                                      55
A P P E N D       I X       ~     D
                                                  Maine – Legal Services for the Elderly, Augusta
In operation since: July 1999                                                             Jan–June           July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  68                66               83
2            Total number of volunteer training hours                                         1,087              545            1,632
3            Total number of volunteer work hours                                             1,308             2,031           3,339
4            Number of media outreach activities                                                 51                 9              60
5            Number of community outreach education events conducted                            45                15               60
6            Estimated number of people reached by community outreach education
             events                                                                           1,674              545            2,219
7            Number of group education sessions for beneficiaries                               57                52              109
8A           Number of beneficiaries who attended group education sessions                     795              1,278           2,073
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 154                34              188
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         173               234              407
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                126                12              138
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       350               255              605
10           Total number of simple inquiries received                                         371              1,043           1,414
11           Total number of simple inquiries resolved                                         364              1,041           1,405
12           Number of inquiries involving complex issues received                                  2              1                3
13A          Number of inquiries involving complex issues referred for further action               2              1                3
13B          Total dollar amount referred for further action                                    $0                $0               $0
14           Number of complex issues resolved                                                      0              0                0
15           Number of complex issues pending further action                                    14                20               20
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0                $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0                $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0                $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0                $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0                $0               $0
17A –17D     Total savings attributable to the projects                                         $0                $0               $0




                                                                                                        56
A P P E N D       I X       ~     D
                                              Maryland – Maryland Department of Aging, Baltimore
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                 141            100              160
2            Total number of volunteer training hours                                        1,644           1,277           2,921
3            Total number of volunteer work hours                                            2,763           1,422           4,185
4            Number of media outreach activities                                                36             110             146
5            Number of community outreach education events conducted                            85            110              195
6            Estimated number of people reached by community outreach education
             events                                                                          4,691           6,862          11,553
7            Number of group education sessions for beneficiaries                               96            118              214
8A           Number of beneficiaries who attended group education sessions                   1,863           3,129           4,992
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  38            119              157
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          59            126              185
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 86            193              279
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       166             79              245
10           Total number of simple inquiries received                                       3,140           1,425           4,565
11           Total number of simple inquiries resolved                                       3,137           1,424           4,561
12           Number of inquiries involving complex issues received                              81             48              129
13A          Number of inquiries involving complex issues referred for further action           14             11               25
13B          Total dollar amount referred for further action                                $1,897          $2,475          $4,372
14           Number of complex issues resolved                                                  73             43              116
15           Number of complex issues pending further action                                    10             11               11
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     57
A P P E N D       I X       ~     D
                                      Massachusetts – Elder Services of Merrimack Valley, Inc., Lawrence
In operation since: July 1999                                                             Jan–June         July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  37               9               39
2            Total number of volunteer training hours                                           23               0               23
3            Total number of volunteer work hours                                            3,981              841           4,822
4            Number of media outreach activities                                            20,001          153,086         173,087
5            Number of community outreach education events conducted                             4               8               12
6            Estimated number of people reached by community outreach education
             events                                                                            296             624              920
7            Number of group education sessions for beneficiaries                                4               2                6
8A           Number of beneficiaries who attended group education sessions                      44             107              151
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  42              50               92
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          36              49               85
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 44               1               45
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        12               0               12
10           Total number of simple inquiries received                                         250             411              661
11           Total number of simple inquiries resolved                                         250             409              659
12           Number of inquiries involving complex issues received                              73               8               81
13A          Number of inquiries involving complex issues referred for further action            8               3               11
13B          Total dollar amount referred for further action                                $6,000             $96           $6,096
14           Number of complex issues resolved                                                  81               3               84
15           Number of complex issues pending further action                                     8              12               12
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0              $0               $0
17A –17D     Total savings attributable to the projects                                         $0              $0               $0




                                                                                                     58
A P P E N D       I X       ~     D
                                                               Michigan – MMAP, Inc., Lansing
In operation since: July 1999                                                                   Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                       217            290              331
2            Total number of volunteer training hours                                              2,531           5,480           8,011
3            Total number of volunteer work hours                                                    198            189              387
4            Number of media outreach activities                                                      38              3               41
5            Number of community outreach education events conducted                                 106             39              145
6            Estimated number of people reached by community outreach education
             events                                                                                7,480           4,138          11,618
7            Number of group education sessions for beneficiaries                                     57             69              126
8A           Number of beneficiaries who attended group education sessions                         1,680           2,443           4,123
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                        31             39               70
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                                58             26               84
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                       96             35              131
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                              24              2               26
10           Total number of simple inquiries received                                                35              7               42
11           Total number of simple inquiries resolved                                                35              7               42
12           Number of inquiries involving complex issues received                                    16             12               28
13A          Number of inquiries involving complex issues referred for further action                  0              0                0
13B          Total dollar amount referred for further action                                     $11,058          $2,164         $13,222
14           Number of complex issues resolved                                                        12              7               19
15           Number of complex issues pending further action                                          48             49               49
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                             $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                             $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                             $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)                $0             $0               $0
17A –17D     Total savings attributable to the projects                                               $0             $0               $0



                                                                                                           59
A P P E N D       I X       ~     D
           Minnesota – Minnesota Board on Aging, Dept. of Human Services, Aging and Adult Services Div., Saint Paul
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  56             41               83
2            Total number of volunteer training hours                                          580            234              814
3            Total number of volunteer work hours                                              117            180              296
4            Number of media outreach activities                                                 2              3                5
5            Number of community outreach education events conducted                            20             23               43
6            Estimated number of people reached by community outreach education
             events                                                                          1,890           2,135           4,025
7            Number of group education sessions for beneficiaries                              136            134              270
8A           Number of beneficiaries who attended group education sessions                   1,210           1,494           2,704
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  18             15               33
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          37              9               46
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 34             18               52
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        73             61              134
10           Total number of simple inquiries received                                         188            366              554
11           Total number of simple inquiries resolved                                         188            366              554
12           Number of inquiries involving complex issues received                             505            368              873
13A          Number of inquiries involving complex issues referred for further action           11             29               40
13B          Total dollar amount referred for further action                               $28,744          $5,256         $34,001
14           Number of complex issues resolved                                                 495            376              871
15           Number of complex issues pending further action                                    24             28               28
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others       $4,197           $112           $4,309
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     60
A P P E N D       I X       ~     D
            Mississippi – Mississippi Department of Human Services, Division of Aging and Adult Services, Jackson
In operation since: July 2000                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  23             24               34
2            Total number of volunteer training hours                                          320             53              373
3            Total number of volunteer work hours                                            4,977           1,793           6,770
4            Number of media outreach activities                                                 1             525             526
5            Number of community outreach education events conducted                            50             91              141
6            Estimated number of people reached by community outreach education
             events                                                                          5,085          11,199          16,284
7            Number of group education sessions for beneficiaries                               40             38               78
8A           Number of beneficiaries who attended group education sessions                     952            875            1,827
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  28            162              190
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          47            224              271
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 74            416              490
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        31             75              106
10           Total number of simple inquiries received                                         396            632            1,028
11           Total number of simple inquiries resolved                                         396            628            1,024
12           Number of inquiries involving complex issues received                              55             41               96
13A          Number of inquiries involving complex issues referred for further action            1              3                4
13B          Total dollar amount referred for further action                                  $785        $218,344        $219,129
14           Number of complex issues resolved                                                  54            119              173
15           Number of complex issues pending further action                                     2              5                5
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     61
A P P E N D       I X       ~     D
                                Missouri – SORT Program Care Connection for Aging Services, Warrensburg
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  26             32               38
2            Total number of volunteer training hours                                           80            166              246
3            Total number of volunteer work hours                                              537            841            1,378
4            Number of media outreach activities                                                 1             49               50
5            Number of community outreach education events conducted                            94             67              161
6            Estimated number of people reached by community outreach education
             events                                                                          3,192           2,493           5,685
7            Number of group education sessions for beneficiaries                               22            105              127
8A           Number of beneficiaries who attended group education sessions                     649           3,709           4,358
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0             12               12
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0             27               27
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0             51               51
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         2              4                6
10           Total number of simple inquiries received                                         907           2,472           3,379
11           Total number of simple inquiries resolved                                         907           2,472           3,379
12           Number of inquiries involving complex issues received                              19             15               34
13A          Number of inquiries involving complex issues referred for further action           10              9               19
13B          Total dollar amount referred for further action                                $1,754           $379           $2,133
14           Number of complex issues resolved                                                  13              7               20
15           Number of complex issues pending further action                                    15             58               58
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others       $1,100             $0           $1,100
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     62
A P P E N D       I X       ~     D
                                                   Montana – Missoula Aging Services, Missoula
In operation since: July 1999                                                             Jan–June         July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                   42             28               44
2            Total number of volunteer training hours                                          173              20              193
3            Total number of volunteer work hours                                              285             182              467
4            Number of media outreach activities                                             2,011             458            2,469
5            Number of community outreach education events conducted                             67             50              117
6            Estimated number of people reached by community outreach education
             events                                                                          3,213            4,219           7,432
7            Number of group education sessions for beneficiaries                                56             46              102
8A           Number of beneficiaries who attended group education sessions                   1,494            1,156           2,650
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   87             37              124
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         123              50              173
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                141              64              205
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         72             70              142
10           Total number of simple inquiries received                                           29             77              106
11           Total number of simple inquiries resolved                                           29             76              105
12           Number of inquiries involving complex issues received                               10              5               15
13A          Number of inquiries involving complex issues referred for further action            0               1                1
13B          Total dollar amount referred for further action                                  $366              $0             $366
14           Number of complex issues resolved                                                   11              5               16
15           Number of complex issues pending further action                                      9             10               10
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others            $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                     $112              $0             $112
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)           $0           $272             $272
17A –17D     Total savings attributable to the projects                                       $112            $272             $384



                                                                                                      63
A P P E N D       I X       ~     D
                   Nebraska – Nebraska Department of Health and Human Services, State Unit on Aging, Lincoln
In operation since: July 2000                                                             Jan–June          July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                    5             103              104
2            Total number of volunteer training hours                                             6            2,482           2,488
3            Total number of volunteer work hours                                                18             182              199
4            Number of media outreach activities                                                216              69              285
5            Number of community outreach education events conducted                            183             129              312
6            Estimated number of people reached by community outreach education
             events                                                                           9,886           15,108          24,994
7            Number of group education sessions for beneficiaries                                41              28               69
8A           Number of beneficiaries who attended group education sessions                      890             566            1,456
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  119              83              202
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          242              98              340
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 442             203              645
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         50             179              229
10           Total number of simple inquiries received                                        1,045            1,969           3,014
11           Total number of simple inquiries resolved                                        1,045            1,966           3,011
12           Number of inquiries involving complex issues received                               28              20               48
13A          Number of inquiries involving complex issues referred for further action            18              14               31
13B          Total dollar amount referred for further action                              $1,125,957         $50,048      $1,176,005
14           Number of complex issues resolved                                                   23              17               40
15           Number of complex issues pending further action                                     25              27               27
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others            $0          $13,877         $13,877
17A          Actual Medicare funds recovered attributable to the projects                        $0          $65,184         $65,184
17B          Actual Medicaid funds recovered attributable to the projects                        $0           $7,861          $7,861
17C          Actual savings to beneficiaries attributable to the projects                       $63           $2,052          $2,115
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)       $2,387          $43,901         $46,289
17A –17D     Total savings attributable to the projects                                      $2,451         $118,998        $121,449



                                                                                                       64
A P P E N D       I X       ~     D
                                          Nevada – Office of the Nevada Attorney General, Las Vegas
In operation since: July 1999                                                             Jan–June         July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                   1               0                1
2            Total number of volunteer training hours                                            0               0                0
3            Total number of volunteer work hours                                                5               0                5
4            Number of media outreach activities                                               393               7              400
5            Number of community outreach education events conducted                            16              16               32
6            Estimated number of people reached by community outreach education
             events                                                                          3,152            3,630           6,782
7            Number of group education sessions for beneficiaries                               20              14               34
8A           Number of beneficiaries who attended group education sessions                   1,014             415            1,429
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  80               0               80
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         192               0              192
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                179               0              179
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        11               0               11
10           Total number of simple inquiries received                                          14              36               50
11           Total number of simple inquiries resolved                                          14              31               45
12           Number of inquiries involving complex issues received                               3               3                6
13A          Number of inquiries involving complex issues referred for further action            0               0                0
13B          Total dollar amount referred for further action                                    $0              $0               $0
14           Number of complex issues resolved                                                   3               1                4
15           Number of complex issues pending further action                                    19              19               19
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0              $0               $0
17A –17D     Total savings attributable to the projects                                         $0              $0               $0



                                                                                                      65
A P P E N D       I X       ~     D
                                      New Hampshire – Bureau of Elderly and Adult Services, Concord
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  28              7               29
2            Total number of volunteer training hours                                            0             16               16
3            Total number of volunteer work hours                                              760           1,624           2,384
4            Number of media outreach activities                                               332              56             388
5            Number of community outreach education events conducted                            37              8               45
6            Estimated number of people reached by community outreach education
             events                                                                          1,150            592            1,742
7            Number of group education sessions for beneficiaries                               21             16               37
8A           Number of beneficiaries who attended group education sessions                     543            402              945
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   8            112              120
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          55             44               99
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 45            117              162
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         1              0                1
10           Total number of simple inquiries received                                          42             11               53
11           Total number of simple inquiries resolved                                          42             11               53
12           Number of inquiries involving complex issues received                              20              4               24
13A          Number of inquiries involving complex issues referred for further action            3              0                3
13B          Total dollar amount referred for further action                                $9,316           $149           $9,465
14           Number of complex issues resolved                                                  14              4               18
15           Number of complex issues pending further action                                    16             16               16
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     66
A P P E N D       I X       ~     D
                        New Jersey – Jewish Family & Vocational Services of Middlesex County, Inc., Milltown
In operation since: July 2001                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  11              6               15
2            Total number of volunteer training hours                                            0             23               23
3            Total number of volunteer work hours                                               98             31              129
4            Number of media outreach activities                                             2,538             12            2,550
5            Number of community outreach education events conducted                            25             11               36
6            Estimated number of people reached by community outreach education
             events                                                                          2,394           1,138           3,532
7            Number of group education sessions for beneficiaries                               49             77              126
8A           Number of beneficiaries who attended group education sessions                   1,997           2,766           4,763
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 452            719            1,171
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         696            911            1,607
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                              1,071           1,463           2,534
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        74            126              200
10           Total number of simple inquiries received                                         141             78              219
11           Total number of simple inquiries resolved                                         132             77              209
12           Number of inquiries involving complex issues received                               9              3               12
13A          Number of inquiries involving complex issues referred for further action            1              2                3
13B          Total dollar amount referred for further action                                $2,674             $0           $2,674
14           Number of complex issues resolved                                                  20              2               22
15           Number of complex issues pending further action                                    14             15               15
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0           $956             $956
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     67
A P P E N D       I X       ~     D
                         New Mexico – New Mexico Aging and Long-Term Services Department, Albuquerque
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  29             65               89
2            Total number of volunteer training hours                                          432           2,788           3,220
3            Total number of volunteer work hours                                                0            241              241
4            Number of media outreach activities                                                 1              8                9
5            Number of community outreach education events conducted                           242            186              428
6            Estimated number of people reached by community outreach education
             events                                                                         39,101          20,350          59,451
7            Number of group education sessions for beneficiaries                                0             26               26
8A           Number of beneficiaries who attended group education sessions                       0            752              752
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0            118              118
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0            114              114
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0            156              156
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         1             85               86
10           Total number of simple inquiries received                                           0              0                0
11           Total number of simple inquiries resolved                                           0              0                0
12           Number of inquiries involving complex issues received                              64             58              122
13A          Number of inquiries involving complex issues referred for further action           19              8               27
13B          Total dollar amount referred for further action                               $50,614        $237,115        $287,729
14           Number of complex issues resolved                                                  58             91              149
15           Number of complex issues pending further action                                    13             42               42
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others      $22,864        $295,136        $318,000
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                     $887          $1,327          $2,214
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                       $887          $1,327          $2,214



                                                                                                     68
A P P E N D       I X       ~     D
                                                 New York – New York State Office of Aging, Albany
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                 387            388              388
2            Total number of volunteer training hours                                          774            840            1,614
3            Total number of volunteer work hours                                              506            589            1,095
4            Number of media outreach activities                                               437             26              463
5            Number of community outreach education events conducted                           124            106              230
6            Estimated number of people reached by community outreach education
             events                                                                         24,382          22,833          47,215
7            Number of group education sessions for beneficiaries                              381            109              490
8A           Number of beneficiaries who attended group education sessions                  14,747           3,634          18,381
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0              0                0
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0              0                0
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0              0                0
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                     2,120           1,037           3,157
10           Total number of simple inquiries received                                          30             23               53
11           Total number of simple inquiries resolved                                          30             22               52
12           Number of inquiries involving complex issues received                              35             77              112
13A          Number of inquiries involving complex issues referred for further action           22             25               47
13B          Total dollar amount referred for further action                               $19,760          $7,673         $27,433
14           Number of complex issues resolved                                                  23             38               61
15           Number of complex issues pending further action                                   121            125              125
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0           $630             $630
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                     $494             $0             $494
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                       $494           $630           $1,123



                                                                                                     69
A P P E N D       I X       ~     D
                                                 North Carolina – Department of Insurance, Raleigh
In operation since: July 2003                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  13             20               22
2            Total number of volunteer training hours                                          115             84              199
3            Total number of volunteer work hours                                              497           9,560          10,057
4            Number of media outreach activities                                             1,511           1,733           3,244
5            Number of community outreach education events conducted                            36             64              100
6            Estimated number of people reached by community outreach education
             events                                                                         12,794         810,526         823,320
7            Number of group education sessions for beneficiaries                               56            156              212
8A           Number of beneficiaries who attended group education sessions                   4,843          10,903          15,746
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  45             57              102
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          10             67               77
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 20             96              116
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         4             66               70
10           Total number of simple inquiries received                                       4,431           5,415           9,846
11           Total number of simple inquiries resolved                                       4,431           5,415           9,846
12           Number of inquiries involving complex issues received                               0              0                0
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   0              0                0
15           Number of complex issues pending further action                                     1              1                1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     70
A P P E N D       I X       ~     D
                  North Dakota – North Dakota Center for Persons with Disabilities, Minot State University, Minot
In operation since: July 2003                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  32             11               41
2            Total number of volunteer training hours                                           18             15               33
3            Total number of volunteer work hours                                              131             49              180
4            Number of media outreach activities                                                26              4               30
5            Number of community outreach education events conducted                            24             31               55
6            Estimated number of people reached by community outreach education
             events                                                                          3,205           2,777           5,982
7            Number of group education sessions for beneficiaries                               24             20               44
8A           Number of beneficiaries who attended group education sessions                     359            554              913
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 104             55              159
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         138             65              203
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                210             93              303
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        23             11               34
10           Total number of simple inquiries received                                          23             33               56
11           Total number of simple inquiries resolved                                          23             33               56
12           Number of inquiries involving complex issues received                               2              3                5
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   2              3                5
15           Number of complex issues pending further action                                     2              1                1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     71
A P P E N D       I X       ~     D
                                                           Ohio – Pro Seniors, Inc., Cincinnati
In operation since: July 2002                                                                 Jan–June           July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                        43              31               57
2            Total number of volunteer training hours                                                185              88              273
3            Total number of volunteer work hours                                                    235             390              625
4            Number of media outreach activities                                                     185              27              212
5            Number of community outreach education events conducted                                  33              65               98
6            Estimated number of people reached by community outreach education
             events                                                                                 3,893           3,466           7,359
7            Number of group education sessions for beneficiaries                                     20              37               57
8A           Number of beneficiaries who attended group education sessions                           429             426              855
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                        48             141              189
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                                48             105              153
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                      104             219              323
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                               1               9               10
10           Total number of simple inquiries received                                                46              30               76
11           Total number of simple inquiries resolved                                                44              30               74
12           Number of inquiries involving complex issues received                                     6               8               14
13A          Number of inquiries involving complex issues referred for further action                  5               5               10
13B          Total dollar amount referred for further action                                      $10,338          $2,941         $13,279
14           Number of complex issues resolved                                                         5               5               10
15           Number of complex issues pending further action                                          18              20               20
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $0           $2,211          $2,211
17A          Actual Medicare funds recovered attributable to the projects                             $0           $2,924          $2,924
17B          Actual Medicaid funds recovered attributable to the projects                             $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                             $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)               $71              $0              $71
17A –17D     Total savings attributable to the projects                                              $71            2,924           2,995



                                                                                                            72
A P P E N D       I X       ~     D
                                   Oklahoma – State of Oklahoma Insurance Department, Oklahoma City
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  22             51               62
2            Total number of volunteer training hours                                           10             98              108
3            Total number of volunteer work hours                                              646           1,803           2,449
4            Number of media outreach activities                                               278               1             279
5            Number of community outreach education events conducted                            66             88              154
6            Estimated number of people reached by community outreach education
             events                                                                         13,222          19,659          32,881
7            Number of group education sessions for beneficiaries                              146            109              255
8A           Number of beneficiaries who attended group education sessions                   5,369           3,297           8,666
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 261            253              514
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         494            482              976
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                728            570            1,298
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         2           1,286           1,288
10           Total number of simple inquiries received                                          43            188              231
11           Total number of simple inquiries resolved                                          43            188              231
12           Number of inquiries involving complex issues received                               5             11               16
13A          Number of inquiries involving complex issues referred for further action            3              7               10
13B          Total dollar amount referred for further action                                $3,776          $1,792          $5,567
14           Number of complex issues resolved                                                   5             12               17
15           Number of complex issues pending further action                                     2              2                2
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)        $362             $0             $362
17A –17D     Total savings attributable to the projects                                       $362             $0             $362



                                                                                                     73
A P P E N D       I X       ~     D
                        Oregon – Department of Human Services, Seniors and People with Disabilities, Keizer
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                 172            194              253
2            Total number of volunteer training hours                                          537             79              616
3            Total number of volunteer work hours                                            1,948           3,595           5,543
4            Number of media outreach activities                                                27           1,801           1,828
5            Number of community outreach education events conducted                           100            165              265
6            Estimated number of people reached by community outreach education
             events                                                                          4,376          28,692          33,068
7            Number of group education sessions for beneficiaries                               40             14               54
8A           Number of beneficiaries who attended group education sessions                     667            199              866
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 103             89              192
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         108             89              197
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                128             79              207
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                     1,361           2,344           3,705
10           Total number of simple inquiries received                                         631            797            1,428
11           Total number of simple inquiries resolved                                         631            797            1,428
12           Number of inquiries involving complex issues received                               6             23               29
13A          Number of inquiries involving complex issues referred for further action            5             14               19
13B          Total dollar amount referred for further action                               $15,000         $90,722        $105,722
14           Number of complex issues resolved                                                   7             17               24
15           Number of complex issues pending further action                                     4             10               10
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     74
A P P E N D       I X       ~     D
                    Pennsylvania – Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  23             23               29
2            Total number of volunteer training hours                                           17             33               50
3            Total number of volunteer work hours                                              209            211              420
4            Number of media outreach activities                                                 5              0                5
5            Number of community outreach education events conducted                            23             28               51
6            Estimated number of people reached by community outreach education
             events                                                                          1,912           2,777           4,689
7            Number of group education sessions for beneficiaries                               21             24               45
8A           Number of beneficiaries who attended group education sessions                     361            745            1,106
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  24             21               45
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          31             31               62
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 68             38              106
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       111            165              276
10           Total number of simple inquiries received                                           0              3                3
11           Total number of simple inquiries resolved                                           0              3                3
12           Number of inquiries involving complex issues received                              10              3               13
13A          Number of inquiries involving complex issues referred for further action            4              2                5
13B          Total dollar amount referred for further action                                    $0           $107             $107
14           Number of complex issues resolved                                                   0              1                1
15           Number of complex issues pending further action                                    15             21               21
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     75
A P P E N D       I X       ~     D
                                       Puerto Rico – Office of the Ombudsman for the Elderly, Santurce
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  10              7               10
2            Total number of volunteer training hours                                          132            264              396
3            Total number of volunteer work hours                                              356            240              596
4            Number of media outreach activities                                                 3              0                3
5            Number of community outreach education events conducted                            77              0               77
6            Estimated number of people reached by community outreach education
             events                                                                          6,858              0            6,858
7            Number of group education sessions for beneficiaries                               23              0               23
8A           Number of beneficiaries who attended group education sessions                     555              0              555
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  44              0               44
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          61              0               61
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                104              0              104
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                           0              1                1
11           Total number of simple inquiries resolved                                           0              1                1
12           Number of inquiries involving complex issues received                               0              0                0
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   0              0                0
15           Number of complex issues pending further action                                     2              2                2
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     76
A P P E N D       I X       ~     D
                                             Rhode Island – Department of Elderly Affairs, Cranston
In operation since: July 2006                                                             Jan–June         July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  32             155              162
2            Total number of volunteer training hours                                          266             644              910
3            Total number of volunteer work hours                                              461              78              540
4            Number of media outreach activities                                                19               1               20
5            Number of community outreach education events conducted                            75              20               95
6            Estimated number of people reached by community outreach education
             events                                                                          4,324            3,343           7,667
7            Number of group education sessions for beneficiaries                               24               2               26
8A           Number of beneficiaries who attended group education sessions                     452              34              486
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  49               1               50
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          69               4               73
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 96               3               99
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        23               0               23
10           Total number of simple inquiries received                                         759            1,223           1,982
11           Total number of simple inquiries resolved                                         753            1,222           1,975
12           Number of inquiries involving complex issues received                               5               1                6
13A          Number of inquiries involving complex issues referred for further action            2               0                2
13B          Total dollar amount referred for further action                                    $0              $0               $0
14           Number of complex issues resolved                                                   3               0                3
15           Number of complex issues pending further action                                    15              42               42
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0              $0               $0
17A –17D     Total savings attributable to the projects                                         $0              $0               $0



                                                                                                      77
A P P E N D       I X       ~     D
                                           South Carolina – Lt. Governor’s Office on Aging, Columbia
In operation since: July 2000                                                             Jan–June          July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                   0                0                0
2            Total number of volunteer training hours                                            0                0                0
3            Total number of volunteer work hours                                                0                0                0
4            Number of media outreach activities                                                 0                0                0
5            Number of community outreach education events conducted                            13               12               25
6            Estimated number of people reached by community outreach education
             events                                                                          2,240              782            3,022
7            Number of group education sessions for beneficiaries                                7                5               12
8A           Number of beneficiaries who attended group education sessions                     170              126              296
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   6                2                8
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           4                0                4
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 15               20               35
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0                0                0
10           Total number of simple inquiries received                                         182              360              542
11           Total number of simple inquiries resolved                                         182              360              542
12           Number of inquiries involving complex issues received                               9               14               23
13A          Number of inquiries involving complex issues referred for further action            3                5                8
13B          Total dollar amount referred for further action                                  $607             $236             $842
14           Number of complex issues resolved                                                  11               30               41
15           Number of complex issues pending further action                                    19               22               22
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0               $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0               $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0               $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0               $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0               $0               $0
17A –17D     Total savings attributable to the projects                                         $0               $0               $0



                                                                                                       78
A P P E N D       I X       ~     D
                                      South Dakota – East River Legal Services Corporation, Sioux Falls
In operation since: July 2000                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  24            115              119
2            Total number of volunteer training hours                                            7            243              250
3            Total number of volunteer work hours                                               41            102              143
4            Number of media outreach activities                                                 0              5                5
5            Number of community outreach education events conducted                             4              0                4
6            Estimated number of people reached by community outreach education
             events                                                                            472              0              472
7            Number of group education sessions for beneficiaries                                2             14               16
8A           Number of beneficiaries who attended group education sessions                     100            317              417
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  59             55              114
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          24             75               99
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 33             77              110
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        32            143              175
10           Total number of simple inquiries received                                          49             46               95
11           Total number of simple inquiries resolved                                          49             46               95
12           Number of inquiries involving complex issues received                               0              0                0
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   0              1                1
15           Number of complex issues pending further action                                     0              0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     79
A P P E N D       I X       ~     D
                                      Tennessee – Upper Cumberland Development District, Cookeville
In operation since: July 2001                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  44             73              102
2            Total number of volunteer training hours                                          401            465              866
3            Total number of volunteer work hours                                               97            772              869
4            Number of media outreach activities                                               115            454              569
5            Number of community outreach education events conducted                           122            159              281
6            Estimated number of people reached by community outreach education
             events                                                                         10,785           6,044          16,829
7            Number of group education sessions for beneficiaries                               49             47               96
8A           Number of beneficiaries who attended group education sessions                   1,056           1,165           2,221
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  32              3               35
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          56             16               72
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 93             23              116
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        95              8              103
10           Total number of simple inquiries received                                         209            121              330
11           Total number of simple inquiries resolved                                         208            120              328
12           Number of inquiries involving complex issues received                              18             26               44
13A          Number of inquiries involving complex issues referred for further action           11             16               27
13B          Total dollar amount referred for further action                                $2,011             $0           $2,011
14           Number of complex issues resolved                                                  16             22               38
15           Number of complex issues pending further action                                    34             52               52
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0          $2,338          $2,338
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0          $2,011          $2,011
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0          $2,011          $2,011



                                                                                                     80
A P P E N D       I X       ~     D
                                       Texas – Better Business Bureau Education Foundation, Houston
In operation since: July 2002                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                   2              8                9
2            Total number of volunteer training hours                                            0             34               34
3            Total number of volunteer work hours                                                4             17               21
4            Number of media outreach activities                                                11              4               15
5            Number of community outreach education events conducted                            26             20               46
6            Estimated number of people reached by community outreach education
             events                                                                          3,979           4,104           8,083
7            Number of group education sessions for beneficiaries                              113             69              182
8A           Number of beneficiaries who attended group education sessions                   3,359           1,935           5,294
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 124            105              229
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         137            182              319
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                255            331              586
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         1              1                2
10           Total number of simple inquiries received                                         101             87              188
11           Total number of simple inquiries resolved                                         101             87              188
12           Number of inquiries involving complex issues received                              24             37               61
13A          Number of inquiries involving complex issues referred for further action           15             28               43
13B          Total dollar amount referred for further action                                $9,375         $29,363         $38,738
14           Number of complex issues resolved                                                   6             29               35
15           Number of complex issues pending further action                                    57             72               72
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     81
A P P E N D       I X       ~     D
                                      Texas – The National Hispanic Council on Aging, Washington, DC
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                 147            147              189
2            Total number of volunteer training hours                                          505           4,835           5,340
3            Total number of volunteer work hours                                            5,044          21,812          26,856
4            Number of media outreach activities                                                23              18              41
5            Number of community outreach education events conducted                            37             34               71
6            Estimated number of people reached by community outreach education
             events                                                                          1,628           6,875           8,503
7            Number of group education sessions for beneficiaries                               87            122              209
8A           Number of beneficiaries who attended group education sessions                   3,033           4,713           7,746
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors               2,005           2,217           4,222
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                       1,831           2,145           3,976
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                              1,648           1,976           3,624
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                     7,282           5,211          12,493
10           Total number of simple inquiries received                                       9,828           6,056          15,884
11           Total number of simple inquiries resolved                                       9,826           6,056          15,882
12           Number of inquiries involving complex issues received                             106             60              166
13A          Number of inquiries involving complex issues referred for further action           11             12               22
13B          Total dollar amount referred for further action                              $208,539        $223,836        $432,375
14           Number of complex issues resolved                                                  70              9               79
15           Number of complex issues pending further action                                   109            130              130
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others     $131,920             $0         $131,920
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     82
A P P E N D        I X       ~     D
                                        Utah – Utah Division of Aging and Adult Services, Salt Lake City
In operation since: June 2009                                                                         Jan–June                July–Dec       Total for 2009
                                       PEFORMANCE MEASURES
1             Total number of active volunteers                                                              105                       75              139
2             Total number of volunteer training hours                                                        60                      699              759
3             Total number of volunteer work hours                                                         2,247                     1,722           3,969
4             Number of media outreach activities                                                             41                        25              66
5             Number of community outreach education events conducted                                         22                       35               57
6             Estimated number of people reached by community outreach education
              events                                                                                       1,864                     2,668           4,532
7             Number of group education sessions for beneficiaries                                             7                       67               74
8A            Number of beneficiaries who attended group education sessions                                  365                     2,245           2,610
8B            Increase in the number of beneficiaries who understand how reading their
              Medicare Summary Notice can help identify billing fraud or errors                               43                       10               53
8C            Increase in the number of beneficiaries who understand why it is important
              to seek assistance with billing questions                                                       42                       12               54
8D            Increase in the number of beneficiaries who know why it is important to
              protect their Medicare and Social Security numbers                                              11                       22               33
9             Number of one-on-one counseling sessions held with or on behalf of a
              beneficiary                                                                                    370                     1,332           1,702
10            Total number of simple inquiries received                                                      162                     1,944           2,106
11            Total number of simple inquiries resolved                                                      162                     1,944           2,106
12            Number of inquiries involving complex issues received                                            8                       22               30
13A           Number of inquiries involving complex issues referred for further action                         3                       17               20
13B           Total dollar amount referred for further action                                             $5,277                $14,882            $20,160
14            Number of complex issues resolved                                                                0                       61               61
15            Number of complex issues pending further action                                                  1                        3                3
16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0                 $4,905             $4,905
17A           Actual Medicare funds recovered attributable to the projects                                    $0                       $0               $0
17B           Actual Medicaid funds recovered attributable to the projects                                    $0                       $0               $0
17C           Actual savings to beneficiaries attributable to the projects                                    $0                     $870             $870
17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0                       $0               $0
17A –17D      Total savings attributable to the projects                                                      $0                     $870             $870

*Utah Division of Aging and Adult Services replaced Utah Legal Services, Inc., as the Senior Medicare Patrol Project in June 2009.

                                                                                                                       83
A P P E N D       I X       ~     D
                                                  Vermont – Community of Vermont Elders, Berlin
In operation since: July 2003                                                             Jan–June         July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  22              37               40
2            Total number of volunteer training hours                                          156             215              371
3            Total number of volunteer work hours                                              310             551              861
4            Number of media outreach activities                                                26              56               82
5            Number of community outreach education events conducted                              4              6               10
6            Estimated number of people reached by community outreach education
             events                                                                            183             139              322
7            Number of group education sessions for beneficiaries                               18              13               31
8A           Number of beneficiaries who attended group education sessions                     600             309              909
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  16              12               28
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          24              15               39
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 23              25               48
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          0              0                0
10           Total number of simple inquiries received                                            5              2                7
11           Total number of simple inquiries resolved                                            5              1                6
12           Number of inquiries involving complex issues received                                4              3                7
13A          Number of inquiries involving complex issues referred for further action             0              1                1
13B          Total dollar amount referred for further action                               $36,863              $0          $36,863
14           Number of complex issues resolved                                                    4              5                9
15           Number of complex issues pending further action                                      2              3                3
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0              $0               $0
17A –17D     Total savings attributable to the projects                                         $0              $0               $0



                                                                                                      84
A P P E N D       I X       ~     D
                                      Virginia – Virginia Association of Area Agencies on Aging, Richmond
In operation since: July 1999                                                             Jan–June          July–Dec   Total for 2009
                                       PEFORMANCE MEASURES
1            Total number of active volunteers                                                  22               94               95
2            Total number of volunteer training hours                                           19             1,385           1,404
3            Total number of volunteer work hours                                              340              204              544
4            Number of media outreach activities                                                 6                7               13
5            Number of community outreach education events conducted                           169              146              315
6            Estimated number of people reached by community outreach education
             events                                                                         17,050             8,516          25,566
7            Number of group education sessions for beneficiaries                               43               86              129
8A           Number of beneficiaries who attended group education sessions                     984             2,100           3,084
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  22                0               22
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          26                0               26
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 44                0               44
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         8                2               10
10           Total number of simple inquiries received                                         148              386              534
11           Total number of simple inquiries resolved                                         148              386              534
12           Number of inquiries involving complex issues received                               8                8               16
13A          Number of inquiries involving complex issues referred for further action            8                6               13
13B          Total dollar amount referred for further action                                $2,247           $13,160         $15,407
14           Number of complex issues resolved                                                   1                1                2
15           Number of complex issues pending further action                                    21               21               21
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0               $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0               $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0               $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0               $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0               $0               $0
17A –17D     Total savings attributable to the projects                                         $0               $0               $0



                                                                                                     85
A P P E N D       I X       ~     D
                            Virgin Islands – Department of Human Services, Senior Citizens Affairs, St. Croix
In operation since: July 2005                                                             Jan–June        July–Dec    Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  29               33              39
2            Total number of volunteer training hours                                          104               70             174
3            Total number of volunteer work hours                                              182              463             645
4            Number of media outreach activities                                               153              142             295
5            Number of community outreach education events conducted                            12               18              30
6            Estimated number of people reached by community outreach education
             events                                                                          1,122           1,479            2,601
7            Number of group education sessions for beneficiaries                               25               27              52
8A           Number of beneficiaries who attended group education sessions                     185              259             444
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  79              104             183
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          83               75             158
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 83              133             216
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        77               67             144
10           Total number of simple inquiries received                                           5                5              10
11           Total number of simple inquiries resolved                                           5                5              10
12           Number of inquiries involving complex issues received                               0                1               1
13A          Number of inquiries involving complex issues referred for further action            0               1                1
13B          Total dollar amount referred for further action                                    $0               $0              $0
14           Number of complex issues resolved                                                   0               0                0
15           Number of complex issues pending further action                                     1                1               1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0               $0              $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0               $0              $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0               $0              $0
17A –17D     Total savings attributable to the projects                                         $0               $0              $0



                                                                                                     86
A P P E N D       I X       ~     D
                                       Washington – Office of the Insurance Commissioner, Tumwater
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  24             13               26
2            Total number of volunteer training hours                                           78             96              173
3            Total number of volunteer work hours                                              462            861            1,324
4            Number of media outreach activities                                                12            448              460
5            Number of community outreach education events conducted                            66             64              130
6            Estimated number of people reached by community outreach education
             events                                                                          1,535           4,424           5,959
7            Number of group education sessions for beneficiaries                               29             22               51
8A           Number of beneficiaries who attended group education sessions                     797            659            1,456
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   3             14               17
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           4             22               26
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  4             27               31
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       169            282              451
10           Total number of simple inquiries received                                         207             84              291
11           Total number of simple inquiries resolved                                         207             84              291
12           Number of inquiries involving complex issues received                              57            139              196
13A          Number of inquiries involving complex issues referred for further action           52             59              110
13B          Total dollar amount referred for further action                               $24,342          $1,147         $25,489
14           Number of complex issues resolved                                                  47            115              162
15           Number of complex issues pending further action                                    41             63               63
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     87
A P P E N D       I X       ~     D
                                                   West Virginia – AARP Foundation, Charleston
In operation since: July 2003                                                             Jan–June         July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                   63             70               76
2            Total number of volunteer training hours                                          229             188              417
3            Total number of volunteer work hours                                              591            1,153           1,744
4            Number of media outreach activities                                               634              325             959
5            Number of community outreach education events conducted                             23             27               50
6            Estimated number of people reached by community outreach education
             events                                                                         13,335           11,685          25,020
7            Number of group education sessions for beneficiaries                                25             26               51
8A           Number of beneficiaries who attended group education sessions                   1,770            2,745           4,515
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   88            105              193
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         162             122              284
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                185             214              399
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       395             558              953
10           Total number of simple inquiries received                                         566             685            1,251
11           Total number of simple inquiries resolved                                         566             685            1,251
12           Number of inquiries involving complex issues received                               26             26               52
13A          Number of inquiries involving complex issues referred for further action            13             12               25
13B          Total dollar amount referred for further action                               $23,289          $23,305         $46,594
14           Number of complex issues resolved                                                    0              9                9
15           Number of complex issues pending further action                                     66            121              121
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others            $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)           $0             $0               $0
17A –17D     Total savings attributable to the projects                                          $0             $0               $0



                                                                                                      88
A P P E N D       I X       ~     D
                                          Wisconsin – Coalition of Wisconsin Aging Groups, Madison
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                  41             36               52
2            Total number of volunteer training hours                                            8             18               26
3            Total number of volunteer work hours                                              376            376              752
4            Number of media outreach activities                                             4,092             52            4,144
5            Number of community outreach education events conducted                            32             35               67
6            Estimated number of people reached by community outreach education
             events                                                                          2,638           4,932           7,570
7            Number of group education sessions for beneficiaries                               49             22               71
8A           Number of beneficiaries who attended group education sessions                   1,196            574            1,770
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 135             96              231
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         143            114              257
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                221            199              420
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                         353            263              616
11           Total number of simple inquiries resolved                                         339            252              591
12           Number of inquiries involving complex issues received                              13             22               35
13A          Number of inquiries involving complex issues referred for further action            5              2                7
13B          Total dollar amount referred for further action                                $1,887         $11,531         $13,419
14           Number of complex issues resolved                                                  18             17               35
15           Number of complex issues pending further action                                     4             10               10
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0          $5,478          $5,478
17A          Actual Medicare funds recovered attributable to the projects                      $37             $0              $37
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)          $0             $0               $0
17A –17D     Total savings attributable to the projects                                        $37             $0              $37



                                                                                                     89
A P P E N D       I X       ~     D
                                                      Wyoming – Senior Citizens, Inc., Riverton
In operation since: July 2000                                                              Jan–June            July–Dec   Total for 2009
                                      PEFORMANCE MEASURES
1            Total number of active volunteers                                                      19              41               57
2            Total number of volunteer training hours                                             1,499            311            1,810
3            Total number of volunteer work hours                                                   24               41              65
4            Number of media outreach activities                                                     0            1,351           1,351
5            Number of community outreach education events conducted                                 3              15               18
6            Estimated number of people reached by community outreach education
             events                                                                                 20            1,426           1,446
7            Number of group education sessions for beneficiaries                                    1               5                6
8A           Number of beneficiaries who attended group education sessions                          15             102              117
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                       0              20               20
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                               0              30               30
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                      0              42               42
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                             0             220              220
10           Total number of simple inquiries received                                               6              25               31
11           Total number of simple inquiries resolved                                               6              24               30
12           Number of inquiries involving complex issues received                                   0               2                2
13A          Number of inquiries involving complex issues referred for further action                0               1                1
13B          Total dollar amount referred for further action                                        $0              $0               $0
14           Number of complex issues resolved                                                       0               1                1
15           Number of complex issues pending further action                                         1               1                1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others               $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                           $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                           $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                           $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance)              $0              $0               $0
17A –17D     Total savings attributable to the projects                                             $0              $0               $0



                                                                                                          90
                  A P P E N D I X               ~     E




                            Performance Measures Definitions


The following list includes the definitions of the performance measures for 2009.




                                                                                    91
A P P E N D            I X       ~     E



                                                           Definitions


ACTIVE VOLUNTEER                            Individuals who donate their time to assist with implementing the
                                            Senior Medicare Patrol Projects (SMP) program. Volunteers are trained to
                                            perform SMP work, which is conducted during their own personal time.
                                            They do not get paid by anyone during the time they perform this work.

TRAINING SESSIONS                           Formal gatherings (e.g., in person, teleconference, or Web conference)
                                            sponsored for the purpose of teaching or updating SMP staff and/or
                                            volunteers who in turn, will educate individuals to identify and report
                                            health care fraud, waste, and abuse. Training sessions do not include
                                            informal training mechanisms, such as email updates or newsletters.


MEDIA OUTREACH                              Any individual airing or publishing of media (e.g., print, radio, television,
ACTIVITY                                    or electronic) to educate about Medicare/Medicaid fraud and the services
                                            of the SMP program. 1

COMMUNITY OUTREACH/                         Any education activity conducted by SMP staff or volunteer that
EDUCATION EVENT                             is not a group education session, one-on-one session, or media outreach
                                            activity.

GROUP EDUCATION                             Formal gatherings led by SMP staff or volunteers to educate
SESSIONS                                    beneficiaries, family members, caregivers, and others on detecting fraud,
                                            waste, and abuse in the health care system and services offered by the
                                            SMP program.

ONE-ON-ONE COUNSELING                       A meeting between SMP staff or volunteer and an individual
SESSION                                     beneficiary and/or his or her family for the purpose of discussing or
                                            gathering information about potential health care fraud, waste, or abuse.
                                            One-on-one counseling sessions may include beneficiary counseling,
                                            information gathering, or information sharing.

SIMPLE INQUIRY                              A brief contact initiated by a consumer and/or beneficiary that is resolved
                                            with minimal time and research or review. Simple inquiries typically do



1
 In 2008, the Administration on Aging clarified that the Senior Medicare Patrol projects should count each time an event was aired or
an article published.




                                                                                                                            92
                         not require individual demographic or private personal information, such
                         as a Medicare number or information about a medical condition.

COMPLEX ISSUES           An inquiry that generally requires the SMP staff or volunteer to obtain
                         beneficiary personal identifying information and detailed information
                         related to the issue, complaint, or allegation in order to conduct further
                         investigation or referral.

COMPLEX ISSUES           A complex issue referred to a Medicare contractor,
REFERRED FOR FURTHER     an investigative agency, or other appropriate organization.
ACTION

COMPLEX ISSUES           A complex issue successfully closed by an SMP, a Medicare
RESOLVED                 contractor, an investigative agency, or another appropriate organization.

COMPLEX ISSUES PENDING   All complex issues—irrespective of when they were received—that
FURTHER ACTION           are still being investigated by either the SMP or an entity to which the
                         case was referred.

COST AVOIDANCE           Health care expenditures for which the Medicare program, the Medicaid
                         program, a beneficiary, or other entity (e.g., secondary health insurer,
                         pharmacy) was relieved of responsibility for payment as a result of the
                         project.

MEDICARE FUNDS           Money saved or recouped to the Medicare Trust Fund as a
RECOVERED                result of the project. This applies to money recouped through a Medicare
                         contractor, a law enforcement agency, or directly to Medicare at the
                         provider level.

MEDICAID FUNDS           Money saved or recouped to Medicaid as a result of the project.
RECOVERED                This applies to money recouped through a Medicaid Fraud Control Unit, a
                         law enforcement agency, or directly to Medicaid at the provider level.

SAVINGS TO THE           Money saved or recouped to an individual as a result of the
BENEFICIARY              projects (e.g., copayments, deductibles, or any other out-of-pocket
                         expenses).

OTHER SAVINGS            Money saved or recouped to an entity other than the Medicare program,
                         the Medicaid program, or beneficiaries (e.g., secondary health insurance),
                         as a result of the project.




                                                                                               93
